<html>
<title> - THE ROLE OF THE STATES IN PROTECTING THE ENVIRONMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
          THE ROLE OF THE STATES IN PROTECTING THE ENVIRONMENT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2013

                               __________

                            Serial No. 113-7


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
79-850                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             ANTHONY D. WEINER, New York
ROBERT E. LATTA, Ohio                JIM MATHESON, Utah
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            JOHN BARROW, Georgia
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky                  Islands
PETE OLSON, Texas                    KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia     JOHN P. SARBANES, Maryland
CORY GARDNER, Colorado               JERRY McNERNEY, California
MIKE POMPEO, Kansas                  BRUCE L. BRALEY, Iowa
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
                Subcommittee on Environment and Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
    Prepared statement...........................................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9
    Prepared statement...........................................    10
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    11
    Prepared statement...........................................    11

                               Witnesses

Harold R. Fitch, Supervisor of Mineral Wells, and Chief, Office 
  of Oil, Gas and Minerals, Michigan Department of Environmental 
  Quality........................................................    12
    Prepared statement...........................................    15
    Answers to submitted questions...............................   128
Matthew J. Lepore, Director, Colorado Oil and Gas Conservation 
  Commission.....................................................    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................   143
Sarah Pillsbury, Administrator, Drinking Water and Groundwater 
  Bureau, New Hampshire Department of Environmental Services.....    38
    Prepared statement...........................................    40
    Answers to submitted questions...............................   163
Jeffery Steers, Director, Land Protection and Revitalization 
  Division, Virginia Department of Environmental Quality.........    51
    Prepared statement...........................................    54
    Answers to submitted questions...............................   167
Teresa Marks, Director, Arkansas Department of Environmental 
  Quality........................................................    61
    Prepared statement...........................................    63
    Answers to submitted questions...............................   173
Hon. Pricey Harrison, North Carolina House of Representatives....    70
    Prepared statement...........................................    72
    Answers to submitted questions...............................   189
Hon. Michael A. Sesma, Council Vice President, City of 
  Gaithersburg, Maryland.........................................    83
    Prepared statement...........................................    86
    Answers to submitted questions...............................   197

                           Submitted Material

Statement of 7 environmental groups..............................   119
Statement of Patrick Parenteau...................................   121
Statement of Susan Parker Bodine.................................   125


          THE ROLE OF THE STATES IN PROTECTING THE ENVIRONMENT

                              ----------                              


                       FRIDAY, FEBRUARY 15, 2013

                  House of Representatives,
           Subcommittee on Environment and Economy,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:29 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus, 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, Gingrey, Hall, Murphy, 
Latta, Cassidy, McKinley, Bilirakis, Johnson, Barton, Upton (ex 
officio), Tonko, Green, DeGette, McNerney, Schakowsky, Barrow, 
and Waxman (ex officio).
    Staff Present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Press Secretary; Matt Bravo, Professional Staff Member; 
Allison Busbee, Policy Coordinator, Energy and Power; Jerry 
Couri, Senior Environmental Policy Advisor; David McCarthy, 
Chief Counsel, Environment/Economy; Andrew Powaleny, Deputy 
Press Secretary; Tina Richards, Counsel, Environment; Krista 
Rosenthall, Counsel to Chairman Emeritus; Chris Sarley, Policy 
Coordinator, Environment and Economy; Lyn Walker, Coordinator, 
Admin/Human Resources; Phil Barnett, Minority Staff Director; 
Alison Cassady, Minority Senior Professional Staff Member; 
Jacqueline Cohen, Minority Counsel; Greg Dotson, Minority Staff 
Director, Energy and Environment; Caitlin Haberman, Minority 
Policy Analyst; and Karen Lightfoot, Minority Communications 
Director and Senior Policy Advisor.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Let's see if we can get the doors closed, and 
I know the folks in the hallway will be happy to hear.
    Good morning. Thank you all for being punctual. Who knows 
when votes will occur, they are going to be earlier today, so 
we are going to try to get through as much as possible, and 
then we will see where we go from there.
    The subcommittee will now come to order. I would like to 
welcome all the members of the subcommittee to our first 
hearing in the 113th Congress. I want to say a special welcome 
to our new ranking member, Mr. Tonko, as well as our new vice 
chairman, Dr. Gingrey, who is late, not a good sign, and all 
our new Republican and Democrat members.
    Today's hearing focuses on the important role that States 
play in environmental protection under current law. This 
hearing will help raise awareness and set the stage for future 
discussions we are going to have on environmental protection.
    Many of us get caught up with what the U.S. EPA thinks or 
what it can do and fail to focus on States and what they can 
and must do. The States are by no means junior regulators or 
the minor leagues of environmental protection. Rather, their 
plate is twice as full. To carry out Federal environmental law, 
States have a lot of delegated authority, but States also have 
their own protective laws, often beyond anything the Federal 
Government has asked.
    State regulators have every bit the same educational 
background, expertise, desire to protect the environment, and 
sense of professionalism as any employee at the EPA, with the 
added bonus of actually living in the communities they are 
trying to make safe. They intimately know the terrain being 
regulated.
    Some people might suggest that States lack the will to 
enforce their laws or that are reluctant to pass anything 
serious. I think that answer is not fair, and I think history 
shows that States have generally acted first on matters before 
the Federal Government has stepped in to do something. In this 
fast-paced, technology-driven society, a static regulatory 
regime cannot respond to innovations nor complex problems and 
challenging geologies. Let me offer a few examples of what I 
mean from issues familiar to our committee.
    In the State of Maryland, there was a terrible coal ash 
problem. The State did not sit by powerless. Rather, in 
December 2008, the Maryland Department of Environmental issued 
one of the most robust sets of coal ash rules in the country. 
Maryland is not the only State. Pennsylvania and Wisconsin have 
demonstrated strong programs that are serious, flexible, and 
successful.
    On the issue of hydraulic fracturing, Colorado has shown it 
can move two major changes to its rules on hydraulic fracturing 
in a matter of months. Ohio has also jumped in to address 
seismicity and other fracturing-related issues important to its 
State. Even North Carolina, which has not fractured a single 
gas well in the entire State, is moving legislation to place 
restrictions on this practice. Back in Illinois, we are home to 
the New Albany shale gas formation with a footprint that is 
much of the southern part of the State and much of my 
congressional district.
    At the State level, they are quickly realizing the jobs and 
positive economic impact of hydraulic fracturing and moving 
steadily towards regulations. While this play is still 
unproven, estimates of upward to 47,000 jobs annually and $9.5 
billion of economic impact for Illinois if the New Albany shale 
potential is realized.
    It is well known that States, rather than the EPA, have 
been dominating the regulatory space for hydraulic fracturing 
for decades. When you consider the amount of additional 
resources and new experiences that would be needed to infuse 
into the EPA to replace what States already do well, it defies 
conventional budgetary wisdom that this is a good public policy 
move. I am not trying to suggest that the EPA does not have an 
important role to play in protecting the environment, but when 
you contrast the nimbleness and commitment of the States with 
the cumbersome and lengthy process which characterizes U.S. 
EPA's one-size-fits-all approach, trusting the States a little 
more seems the right thing to do.
    I know some of my colleagues here will dismiss these 
arguments and suggest coal and gas need even more regulation 
because they are, quote-unquote, ``dirty,'' and we need cleaner 
fuels. I would submit to my colleagues that if this is really 
about environmental protection and not energy use manipulation, 
we must acknowledge that every fuel production method has risk.
    On Monday, ABC News ran a story from the Associated Press 
about the negative environmental externalities with solar 
power. It read, Fueled partly by billions in government 
incentives, the industry is creating millions of pounds of 
polluted sludge and contaminated water. Companies must 
transport it by truck or rail to waste facilities hundreds and 
in some cases thousands of miles away. AP compiled a list of 41 
solar makers in California, and based on State data, 24 of them 
did not report their waste. The State records show that 17 
companies, which had 44 manufacturing facilities in California, 
produced 46.5 million pounds of sludge and contaminated water 
from 2007 through the first half of 2011. Roughly 97 percent of 
it was taken to hazardous waste facilities throughout the 
State, but more than 1.5 million pounds were transported to 
nine other States, and though it could be manifested, AP 
reports 2.1 million tons are unaccounted. Even though EPA and 
this administration are bullish on solar technologies, the same 
level of Federal data does not exist.
    I want to welcome the State officials who have joined us 
today from across the country to share their experience, 
perspective, and devotion to their States' environments. We 
have representatives from State groundwater, drinking water, 
oil and gas, solid, and hazardous waste offices as well as 
their agency heads. We also have a State legislator and a city 
council member.
    I now yield to Mr. Tonko, our subcommittee's ranking 
member, for his opening statement.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    I would like to welcome all the members of the subcommittee 
to our first hearing in the 113th Congress. I want to say a 
special welcome to our new Ranking Member, Mr. Tonko, as well 
as our new Vice-Chair Dr. Gingrey and all our new Republican 
and Democrat members.
    Today's hearing focuses on the important role that states 
play in environmental protection under current law.
    This hearing will help raise awareness and set the stage 
for future discussions we are going to have on environmental 
protection. Many of us get caught up with what the U.S. EPA 
thinks or what it can do and fail to focus on the states and 
what they can and must do.
    The states are by no means, ``junior regulators'' or the 
minor leagues of environmental protection. Rather, their plate 
is twice as full. To carry out federal environmental law, 
states have a lot of delegated authority. But states also have 
their own protective laws. Often, beyond anything the federal 
government has asked.
    State regulators have every bit the same educational 
background, expertise, desire to protect the environment, and 
sense of professionalism as any employee at EPA, with the added 
bonus of actually living in the communities they are trying to 
make safe. They intimately knowing the terrain being regulated.
    Some people might suggest states lack the will to enforce 
their laws or they are reluctant to pass anything serious. I 
think that answer is not fair, and I think history shows the 
states have generally acted first on matters before the federal 
government has stepped in to do something.
    In this fast-paced technology driven society; a static 
regulatory regime cannot respond to innovations nor complex 
problems and challenging geologies. Let me offer a few examples 
of what I mean from issues familiar to our committee.
    In the state of Maryland, there was a terrible coal ash 
problem. The state did not sit by powerless. Rather, in 
December 2008 the Maryland Department of the Environment issued 
one of the more robust sets of coal ash rules in the country. 
Maryland is not the only state, Pennsylvania and Wisconsin have 
demonstrated strong programs that are serious, flexible, and 
successful.
    On the issue of hydraulic fracturing, Colorado has shown it 
can move 2 major changes to its rules on hydraulic fracturing 
in a matter of months. Ohio has also jumped in to address 
seismicity and other fracturing-related issues important to its 
state. Even North Carolina, which has not fractured a single 
gas well in the entire state, is moving legislation to place 
restrictions on this practice.
    Back in Illinois, we are home to the New Albany shale gas 
formation with a footprint that's much of the southern part of 
the state. At the state level they are quickly realizing the 
jobs and positive economic impact of hydraulic fracturing and 
moving steadily towards regulations.
    While this ``play'' is still unproven, estimates have 
upwards of 47,000 jobs annually and $9.5 billion of economic 
impact for Illinois if the New Albany Shale's potential is 
realized.
    It is well-known that the states, rather than EPA, have 
been dominating the regulatory space for hydraulic fracturing 
for decades. When you consider the amount of additional 
resources and new experience that would need to be infused into 
EPA to replace what states already do well, it defies 
conventional budgetary wisdom that this is a good public policy 
move.
    I am not trying to suggest EPA does not have an important 
role to play in protecting the environment, but when you 
contrast the nimbleness and commitment of the states with the 
cumbersome and lengthy process which characterizes US EPA's 
one-size-fits-all approach, trusting the states a little more 
seems the right thing to do.
    I know some of my colleagues here will dismiss these 
arguments and suggest coal and gas need even more regulation 
because they are ``dirty'' and we need ``cleaner'' fuels. I 
would submit to my colleagues that if this is really about 
environmental protection--and not energy use manipulation, we 
must acknowledge that every fuel production method has risks.
    On Monday, ABC News ran a story from the Associated Press 
above the negative environmental externalities with solar 
power.
    It read: Fueled partly by billions in government 
incentives, the industry is creating ``millions of pounds of 
polluted sludge and contaminated water.''
    ``Companies must transport it by truck or rail to waste 
facilities hundreds and, in some cases, thousands of miles 
away.
    AP compiled a list of the top 41 solar makers in CA, and 
based on state data, 24 of them did not report their waste. The 
state records show the 17 companies, which had 44 manufacturing 
facilities in California, produced 46.5 million pounds of 
sludge and contaminated water from 2007 through the first half 
of 2011. Roughly 97 percent of it was taken to hazardous waste 
facilities throughout the state, but more than 1.4 million 
pounds were transported to nine other states. And, though it 
could be manifested, AP reports 2.1 million tons are 
unaccounted.
    Even though EPA and this administration are bullish on 
solar technologies, the same level of federal data does not 
exist.
    I want to welcome the state officials who have joined us 
today from across the country to share their experience, 
perspective, and devotion to their states' environments. We 
have representatives from state groundwater, drinking water, 
oil and gas, and solid and hazardous wastes offices as well as 
their agency heads. We also have a state legislator and a city 
council member.
    I now yield to Mr. Tonko, our subcommittee's ranking member 
for his opening statement.

                                #  #  #

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and it is a pleasure to 
join with you, Chairman Shimkus, and our expert witnesses, who 
will share their thoughts with us this morning. Thank you to 
the entire panel for making the effort, and to join with the 
ranker of our committee, with Ranker Waxman and our team, and 
all of the members of the subcommittee. While we will not 
always be in agreement, I hope that we can find common ground 
to move this Nation forward on important issues in the 
jurisdiction of this committee, this subcommittee.
    Today's hearing revisits an issue that we have been 
discussing since the day of the 13 original colonies deciding 
to band together and declare their independence from Great 
Britain. Over the years, we have continued to struggle to 
define the proper balance between Federal and State regulation. 
I expect we will continue to debate this for many years to 
come. Each one of the individual States we represent is 
different, to be sure, and the States have a responsibility to 
their citizens to manage their resources and their economies, 
but we know that from our Nation's history, decisions made in 
one State often have impacts beyond that particular State's 
borders. Just as we have State laws to ensure consistency among 
the towns, villages, counties, and regions within States, 
Federal law guarantees minimum standards for all of our 
Nation's citizens. They promote good relations amongst 
neighboring States, and they ensure that shared resources--
water, air, land, forests, wildlife, and fisheries to name a 
few--remain viable and available for everyone's beneficial use.
    The environment of any one State does not fit discreetly 
within its political boundaries. New York, my home State, 
shares its borders with five other States and with the Nation 
of Canada. We share our watersheds and airsheds with an 
additional six States. While New York has strong environmental 
protections, our environment is not only dependent upon how New 
York State manages its resources. It also depends upon the 
choices made by those other neighboring States in our region 
and by Canada.
    The system we have today was put in place largely as a 
result of the experience we had prior to the adoption of sound 
Federal environmental laws. That experience was not good. It 
involved polluted surface and groundwater, acid rain, smog, 
soil erosion, and collapsed fisheries as a result of a States-
only approach to environmental protection. Most of these 
environmental problems have been reduced significantly by 
Federal laws implemented in cooperation with the States.
    I would also point out that we have accomplished these 
environmental success stories while our population and economy 
grew. We do not have to choose between a healthy environment 
and a healthy economy. Indeed, one complements the other, and 
we know that public health is not a luxury; it is indeed a 
necessity.
    Just last month, a number of reports appeared about the 
terrible pollution problems in China, problems that are now too 
large to ignore. The result is increased hospitalizations and 
emergency shutdowns of some factories. The Chinese are 
discovering what we learned a long time ago: Unfettered 
industrial activity results in widespread serious pollution 
that does, indeed, impact public health and the economy.
    Clean air, clean water, and healthy soils are fundamental 
building blocks of a sound economy and a healthy society. With 
creativity and willing partners in the private sector, we can 
do even better. We do not want to go backward. Forward is our 
only direction.
    Pollution prevention is always less costly than pollution 
cleanup. Our laws are not perfect, and their implementation is 
not perfect, but the public is well served by them, and we 
should be working to improve and strengthen them for the sake 
of public health and resource protection.
    Every citizen in this Nation deserves to live in a 
community with clean air and clean water. Federal and State 
partnership in this effort has made this guarantee a reality 
and delivered real results. We should build on this success to 
address new challenges, like climate change. Now is not the 
time to reverse course.
    I look forward to hearing from our witnesses, expert that 
they are, this morning.
    Thank you all for agreeing to appear before our 
subcommittee today.
    And again thank you, Mr. Chairman. I look forward to 
working with you and our fellow committee members, subcommittee 
members.
    Mr. Shimkus. Thank you, Mr. Tonko.
    And I look forward to working with you, too.
    Now I would like to yield to the chairman of the full 
committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    You know, we are eager to better understand the role of the 
States in conserving resources and protecting the health of 
their residents.
    And it is a special pleasure to see Hal Fitch, who manages 
Michigan's DEQ's Office of Oil, Gas and Minerals. Welcome.
    Effective regulatory management of resource development is 
crucial. Excess restrictions cost jobs and revenue, but 
inadequate oversight and regulation could turn a State's 
residents against resource development. So we have got to 
strike the right regulatory balance.
    Most agree that for policy decisions to be fair, they have 
to be made at the appropriate level of government, but what is 
that level? It is the one closest to the people but still has 
enough authority to carry out the policy. If the decision 
affects only folks in Kalamazoo, it should be made by the 
Kalamazoo City Commission. If it also affects others in 
Michigan, it ought to be made by State officials. Only those 
policies that impact citizens from more than one State should 
be made by the Federal Government.
    Today's hearing gives us a chance to see environmental 
protection through the eyes of State officials. We are going to 
see firsthand that they, A, care about the environments in 
which they live and work; B, have professional experience and 
local expertise; C, seek the right balance between 
environmental protection and economic opportunity; and, lastly, 
take seriously their legal obligations under both State and 
Federal law. It is important to understand the important roles 
States play in protecting the environment, and that is what 
this hearing is about.
    And I yield to my friend, Mr. Barton.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    We are eager to better understand the role of the states in 
conserving resources and protecting the health of their 
residents. It's a special pleasure to see Hal Fitch, who 
manages the Michigan DEQ's Office of Oil, Gas, and Minerals.
    Effective regulatory management of resource development is 
crucial. Excess restrictions costs jobs and revenue, but 
inadequate oversight and regulation could turn a state's 
residents against resource development. We must strike the 
right regulatory balance.
    Most people agree that for policy decisions to be fair, 
they must be made at the appropriate level of government. But 
what is that level? It's the one closest to the people but 
still has enough authority to carry out the policy. If the 
decision affects only people in Kalamazoo, it should be made by 
the Kalamazoo City Commission; if it also affects others in 
Michigan, it should be made by state officials. Only those 
policies that impact citizens from more than one state should 
be made by the federal government.
    Today's hearing gives us a chance to see environmental 
protection through the eyes of state officials. We will see 
first-hand that they:
    <bullet> Care about the environments in which they live and 
work;
    <bullet> Have professional experience and local expertise;
    <bullet> Seek the right balance between environmental 
protection and economic opportunity; and
    <bullet> Take seriously their legal obligations under both 
state and federal law.
    It is important to understand the important role states 
play in protecting the environment. One thing wealready know is 
that Washington does not always know best.

                                #  #  #

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Chairman.
    And I first want to put to bed the rumor that I would not 
attend an early morning hearing on a getaway day. Staff seemed 
to think that I wouldn't show up. I want the record to show the 
only two members here ahead of me were the subcommittee 
chairman and the ranking member. They were here when I arrived. 
So I can show up in the morning, although I will admit there 
have been times that I have not.
    I do appreciate this first hearing of this subcommittee 
being on this issue. I think we have a great panel of witnesses 
from around the country. When I was chairman of this committee 
back in 2005, we passed the Energy Policy Act, and in that, we 
revised the Safe Drinking Water Act to state as follows: 
Underground injection, to exclude the term underground 
injection, the underground injection of fluids or propping 
agents pursuant to hydraulic fracturing operations related to 
oil, gas, or geothermal production activities. In other words, 
we said that the Federal Government could not regulate those. I 
think that is the best way to do it.
    In my home State of Texas, in my congressional district, 
there are over 16,000 producing wells that have been 
hydraulically fractured and horizontally drilled. In the 
largest county that I represent, Tarrant County, which is an 
urban-suburban county, the number of mineral property owners 
went from 500 in the mid 1990s to today well over 100,000. This 
has been done without affecting the environment in any shape, 
form or fashion, other than the normal issues you have with 
noise and dust and trucks and things like that when you drill 
or have any kind of a commercial activity.
    I think the ranking member's statement from New York State 
is dead on in the sense that, comparing his State and my State, 
Texas has chosen to regulate hydraulic fracturing, but to allow 
it. His State so far has chosen not to. I don't have a problem 
with that. I do predict over time, his home State of New York 
may decide, in fact, that it may be well to do it in certain 
shapes, forms or fashions.
    With that, I would like to yield to Dr. Gingrey for 2 
minutes.
    [The prepared statement of Mr. Barton follows:]

                 Prepared statement of Hon. Joe Barton

    Thank you Chairman Shimkus for holding this hearing. My 
home state of Texas has been and is currently capable, active, 
and effective in protecting the environment and public health 
of Texans. I find it disingenuous for the Federal Government 
and in particular the Environmental Protection Agency (EPA) and 
the Department of Energy (DOE) to think that they are the only 
ones that can do this effectively. The same is true of the 
other states that sent governmental representatives here today 
to testify.
    The recognition that it is the states rather than the feds 
that can best regulate their domestic oil and gas productions, 
especially when it comes to emerging and innovative 
technologies, was spelled out in the Energy Policy Act of 2005, 
which passed through this Committee when I was Chairman. Back 
then, this Committee recognized the importance of hydraulic 
fracturing and expressly revised the Safe Drinking Water Act 
term ``underground injection'' to exclude ``the underground 
injection of fluids or propping agents pursuant to hydraulic 
fracturing operations related to oil, gas, or geothermal 
production activities.''
    There is a company in my district and several other 
companies in Texas that are investing in researching reduced or 
waterless fracking technologies. This kind of innovation should 
be encouraged by local and federal agencies and these agencies 
should maintain oversight throughout the process so they 
understand the environmental and public health impacts instead 
of guessing at them.

    Mr. Gingrey. And I thank the gentleman for yielding.
    Mr. Chairman, I want to thank you for calling this hearing 
today on the role the States play in implementing our Federal 
environmental laws.
    I also would like to welcome our panel of witnesses that 
will provide the subcommittee with its collective wealth of 
knowledge on how they implement the various Federal laws, 
Federal and State laws.
    Today's hearing is my first as vice chair of this 
subcommittee, and today's hearing is a great example of the 
broad jurisdiction that we have. Mr. Chairman, I look forward 
to working with you and the other members of this subcommittee 
on both sides of the aisle, the ranking member Mr. Tonko, my 
good friend from New York, during this Congress to address the 
important environmental issues that will have a significant 
impact on the American people. We will examine spent nuclear 
fuel and its long-term storage with the hopes of finally 
turning the use of Yucca Mountain into a reality.
    During the 113th Congress, this subcommittee will also 
study the benefits of hydraulic fracturing in our domestic 
energy production.
    Mr. Chairman, I stand ready to work and I look forward to 
providing solutions for the policy areas under our jurisdiction 
on this subcommittee.
    Today's hearing provides a strong starting point for the 
subcommittee for the 113th Congress, and I believe that we will 
learn a great deal from our panel today that will help guide us 
throughout the next 2 years, and I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the ranking member of the full 
committee, Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    I congratulate you on this hearing and taking over this 
chairmanship.
    And I want to recognize our ranking member on the 
subcommittee as well. We look forward to working on a 
bipartisan basis to get things done.
    This hearing is to examine the way Federal and State 
regulators work together to protect public health and the 
environment. Over the years, the Federal Environmental 
Protection Agency and the States have developed a proven model 
that has successfully reduced air pollution and ensured the 
public's access to safe drinking water.
    Under this model, EPA sets minimum standards that States 
can exceed if they so choose. Implementation can be delegated 
to States on the showing that they have requirements in place 
that are at least as stringent as the Federal floor. Even then, 
EPA retains backstop enforcement authority to ensure that every 
citizen in the United States is receiving a minimum level of 
protection from environmental risks. EPA also plays an 
essential role in supporting State implementation through 
technical assistance, grants, and often loan funds as well.
    As we will hear from the panel, this model has worked. 
States have received delegation for over 96 percent of the 
environmental programs that can be delegated. This is an 
impressive track record, and even more so when you consider the 
fact that this approach has offered protection to American 
families from pollution that causes respiratory diseases, from 
contaminants in their drinking water, and from toxic 
environmental exposures that can cause cancers and other 
diseases.
    Despite these successes, there have been recent proposals 
to abandon the proven models and abdicate responsibilities to 
the States. One of the most immediate examples is the coal ash 
legislation from the last Congress.
    As we hear from State regulators about the good work they 
are doing, we should be mindful of the serious threat the 
sequester and the Republican budget pose to this proven model 
of environmental protection. Without Federal technical 
assistance and funding, States may be unable to maintain their 
delegated programs. If the programs are handed back to EPA, EPA 
may not have the resources to take on this added 
implementation. The transition between State and Federal 
programs may create costs for regulated entities and 
uncertainty for industry. And worst of all, bad actors may see 
opportunities to shirk environmental regulations, because of 
the lack of enforcement resources.
    According to EPA, if sequestration goes into effect, there 
will be nearly 300 fewer cleanups under the leaking underground 
storage tank program. There could be a thousand fewer 
inspections to protect communities from toxic air pollution and 
other pollution that could can cause illness and death. And 
essential services to industry, like EPA's certification of 
auto engines for emission standards, could be curtailed.
    Budget cuts that undermine implementation of our 
environmental statutes are penny wise and pound foolish. I hope 
my colleagues will listen closely to the testimony we hear 
today and bear it in mind as we consider sequestration, which 
is to take effect just a couple weeks from now, and EPA's 
budget in the coming weeks.
    So I thank you for this hearing and look forward to the 
testimony.
    I would be happy to yield to any of my colleagues.
    Ms. Schakowsky, I yield to you the balance of my time.
    [The prepared statement of Mr. Waxman follows:]

               Prepared statement of Hon. Henry A. Waxman

    I thank the Chairman for calling this hearing so that we 
can examine the way federal and state regulators work together 
to protect public health and the environment. Over the years, 
the federal Environmental Protection Agency (EPA) and the 
states have developed a proven model that has successfully 
reduced air pollution and ensured the public's access to safe 
drinking water.
    Under this model, EPA sets minimum standard that states can 
exceed if they so choose. Implementation can be delegated to 
states on a showing that they have requirements in place that 
are at least as stringent as the federal floor. Even then, EPA 
retains backstop enforcement authority to ensure that every 
citizen in the United States is receiving a minimum level of 
protection from environmental risks. EPA also plays an 
essential role in supporting state implementation through 
technical assistance, grants, and often loan funds as well.
    As we will hear from the panel, this model has worked. 
States have received delegation for over 96% of the 
environmental programs that can be delegated. This is an 
impressive track record, and even more so when you consider the 
fact that this approach has offered protection to American 
families from pollution that causes respiratory diseases, from 
contaminants in their drinking water, and from toxic 
environmental exposures that can cause cancers and other 
diseases.
    Despite these successes, there have been recent proposals 
to abandon the proven models and abdicate responsibilities to 
the states. One of the most immediate examples is the coal ash 
legislation from last Congress.
    As we hear from state regulators about the good work they 
are doing, we should be mindful of the serious threat the 
sequester and the Republican budget pose to this proven model 
of environmental protection. Without federal technical 
assistance and funding, states may be unable to maintain their 
delegated programs. If the programs are handed back to EPA, EPA 
may not have the resources to take on this added 
implementation. The transition between state and federal 
programs may create costs for regulated entities and 
uncertainty for industry. And worst of all, bad actors may see 
opportunities to shirk environmental regulations, because of 
the lack of enforcement resources.
    According to EPA, if sequestration goes into effect, there 
will be nearly 300 fewer cleanups under the leaking underground 
storage tank program. There could be a 1,000 fewer inspections 
to protect communities from toxic air pollution and other 
pollution that can cause illnesses and death. And essential 
services to industry like EPA's certification of auto engines 
for emissions standards could be curtailed.
    Budget cuts that undermine implementation of our 
environmental statutes are penny wise and pound foolish. I hope 
my colleagues will listen closely to the testimony we hear 
today and bear it in mind as we consider sequestration and 
EPA's budget in the coming weeks.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I thank the gentleman for yielding, and I 
appreciate this hearing.
    An overarching theme of today's hearing will be the role of 
States in monitoring and enforcing regulations over the process 
of hydraulic fracturing, I suspect. I am principally concerned 
about the environmental impacts of hydraulic fracturing.
    According to Cornell University president Robert Howarth, 
3.6 to 7.9 percent of the methane from shale gas production 
which, results from fracturing, escapes to the atmosphere in 
venting and leaks over the lifetime of a well, that was a 
quote. The study claims that this represents a 30 to 100 
percent increase over conventional gas production. The impact 
of that methane pollution could be more impactful on greenhouse 
gas emissions than on the burning of oil.
    Concerns about the impact of hydraulic fracturing on water 
are well documented. Reports have been filed in more than 10 
States about water contamination that occurred shortly after 
hydraulic fracturing commenced.
    I just want to point out that last month the EPA announced 
its third delay in its investigation into water contamination 
that the residents of Pavillion, Wyoming, believe is connected 
to hydraulic fracturing. We need to make sure that the EPA does 
follow up and examine the cause of contamination of drinking 
water.
    And I yield back.
    Thank you.
    [The prepared statement of Ms. Schakowsky follows:]

            Prepared statement of Hon. Janice D. Schakowsky

    Thank you, Chairman Shimkus, for holding today's hearing 
about the role of states in protecting our environment. This is 
an important topic, and I'm glad to start this congress on such 
a critical issue.
    An overarching theme of today's hearing will be the role of 
the states in monitoring and enforcing regulations over the 
process of hydraulic fracturing. I am principally concerned 
about the environmental impacts of hydraulic fracturing.
    According to Cornell University Professor Robert Howarth, 
``3.6% to 7.9% of the methane from shale-gas production 
(resulting from hydraulic fracturing) escapes to the atmosphere 
in venting and leaks over the lifetime of a well.'' The study 
claims that this represents a 30& 100% increase over 
conventional gas production. The impact of that methane 
pollution could be more impactful on greenhouse gas emissions 
than the burning of oil.
    Concerns about the impact of hydraulic fracturing on water 
are well-documented. Reports have been filed in more than 10 
states about water contamination that occurred shortly after 
hydraulic fracturing commenced. A well-funded EPA would enable 
faster investigation and action in the case of water 
contamination across the country.
    Last month, the EPA announced its 3rd delay in its 
investigation into water contamination that residents of 
Pavillion, Wyoming believe is connected to Hydraulic 
Fracturing. I sent a letter, along with 20 colleagues, to EPA 
Administrator Lisa Jackson voicing our concern about the 
delays--which have now stretched over a year--and reiterating 
the need to examine and rule on the cause of contamination of 
drinking water.
    Again, thank you for holding today's important hearing. I 
look forward to the testimony of our witnesses.

    Mr. Shimkus. The gentlelady yields back her time.
    Again, thank all members for their attendance.
    And now I would like to turn to our panel. Thank you for 
being patient.
    We are going to go left to right, and I am just--for the 
sake of time, I am just going to--I usually do a whole 
introduction, but I am just going to go straight. We are just 
going to run into this.
    So, first, let me welcome Mr. Harold Fitch, who is 
supervisor of the mineral wells and chief, Office of Oil, Gas, 
and Minerals for Michigan Department of Environmental Quality.
    Sir, your full statement is in the record, you have 5 
minutes, and you are now recognized.

STATEMENTS OF HAROLD R. FITCH, SUPERVISOR OF MINERAL WELLS, AND 
CHIEF, OFFICE OF OIL, GAS AND MINERALS, MICHIGAN DEPARTMENT OF 
 ENVIRONMENTAL QUALITY; MATTHEW J. LEPORE, DIRECTOR, COLORADO 
     OIL AND GAS CONSERVATION COMMISSION; SARAH PILLSBURY, 
   ADMINISTRATOR, DRINKING WATER AND GROUNDWATER BUREAU, NEW 
HAMPSHIRE DEPARTMENT OF ENVIRONMENTAL SERVICES; JEFFERY STEERS, 
DIRECTOR, LAND PROTECTION AND REVITALIZATION DIVISION, VIRGINIA 
 DEPARTMENT OF ENVIRONMENTAL QUALITY; TERESA MARKS, DIRECTOR, 
  ARKANSAS DEPARTMENT OF ENVIRONMENTAL QUALITY; THE HONORABLE 
 PRICEY HARRISON, NORTH CAROLINA HOUSE OF REPRESENTATIVES; AND 
THE HONORABLE MICHAEL A. SESMA, COUNCIL VICE PRESIDENT, CITY OF 
                     GAITHERSBURG, MARYLAND

                  STATEMENT OF HAROLD R. FITCH

    Mr. Fitch. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am Hal Fitch, as you heard. I am the State geologist of 
Michigan as well as the director of our Office of Oil, Gas, and 
Minerals. Our office is charged with regulating oil and gas and 
mining in Michigan. I am here today on behalf of the Interstate 
Oil and Gas Compact Commission. I am also a member of the board 
of directors of the Groundwater Protection Council, which you 
are going to hear from in just a minute.
    The IOGCC is an organization chartered by Congress that 
represents the Governors of 38 States. Its mission is to 
promote the conservation and efficient recovery of domestic oil 
and gas, while protecting health, safety, and the environment. 
Thank you for the opportunity to be here this morning.
    I want to talk briefly about the regulatory structure and 
processes in Michigan, recognizing that Michigan is typical of 
many of our sister States in many respects, and we are also 
unique; each State is unique. And I want to talk about IOGCC's 
role in assisting the States in coordinating their efforts. The 
States have a long and successful history of regulating oil and 
gas operations. The States recognized the need, in fact, to 
protect the environment while at the same time fostering 
orderly development of oil and gas decades before the beginning 
of the modern environmental movement.
    Michigan's regulatory structure is typical of our sister 
States. We oversee well drawing and production from cradle to 
grave, and we also cover injection wells that are associated 
with oil and gas operations. We have a staff of about 60 
people, comprised of geologists, engineers, attorneys, 
enforcement specialists, and administrative support staff. 
Michigan has had over 60,000 oil and gas wells drilled starting 
back in the 1920s. We currently have about 19,000 wells active.
    My agency's oversight starts with issuance of permits and 
administration of our rules. They cover well drilling and 
construction to assure that oil and gas and by-products are 
contained within the well bore. If a well is productive, we 
regulate production rates, surface equipment, and environmental 
monitoring. Our staff conduct regular inspections over the life 
of a well, and we prescribe how a well has to be plugged and 
the site restored at the end of its productive life. Last year, 
we conducted over 17,000 field inspections.
    My agency enforces strict requirements for spill 
prevention, containment, cleanup and reporting. We monitor air 
and water emissions to assure compliance with State and Federal 
standards. Finally, we have dedicated funding to plug wells in 
the event that the operator isn't solvent or enters into 
bankruptcy so that the State can take care of that well and 
plug it properly.
    State oil and gas statutes, regulations, and administrative 
procedures are tailored to the legal structure and doctrines, 
environmental conditions, geology, topography, climate, and 
community sensitivities that are specific to each State. In 
addition, our regulatory staff must have highly specialized 
backgrounds and expertise in well drilling, oil and gas 
production, law enforcement, and property rights as they apply 
in each specific State. A one-size-fits-all Federal approach 
would not be as effective or efficient in accommodating those 
unique issues.
    Hydraulic fracturing is an example of the adaptability of 
State regulations in addressing emerging technologies. Michigan 
has had over 12,000 wells hydraulically fractured, starting 
back in 1952. We have not had one incident of environmental 
contamination related to hydraulic fracturing. In talking to my 
counterparts in other States, they have the same conclusion. 
None of us have seen a direct impact or direct contamination of 
groundwater from hydraulic fracturing. There are some other 
issues associated with it that have to be managed properly. One 
of those is management of wastewater, the flow-back water that 
comes back out of the well. Another one is the increased water 
withdrawals that are necessary for large-scale fracturing which 
we are seeing in recent years.
    Michigan issued special requirements for evaluation of 
water withdrawals. We use a Web-based assessment tool, and we 
issued requirements for monitoring and reporting of hydraulic 
fracturing operations. We have also begun posting chemical 
additive reports on our Web site. Oil and gas agencies in other 
States have taken similar steps to address those same issues.
    While we are unique, we also--States also have elements in 
common with each other, and that is where the IOGCC and 
Groundwater Protection Council come in. They are very effective 
in helping us to coordinate our efforts and increase our 
effectiveness. The IOGCC provides a forum for States to share 
ideas, it has a training program, provides model statutes, 
coordination, and they have an inspector certification program.
    Groundwater Protection Council developed FracFocus in 
cooperation with the IOGCC, the nationwide Web-based registry 
for reporting of chemicals used in hydraulic fracturing. It is 
used by 10 States currently. We also, the IOGCC, supports 
underground injection peer-review program; the RBDMS, risk-
based data management system, and we are evaluating the use of 
that RBDMS to help provide information to the Energy 
Information Administration.
    Mr. Shimkus. Mr. Fitch, if you can just sum up real 
quickly. We are going to have time for questions, so I think we 
will be able to----
    Mr. Fitch. That is all I have to say. Thank you very much.
    [The prepared statement of Mr. Fitch follows:]

    [GRAPHIC] [TIFF OMITTED] T9850.001
    
    [GRAPHIC] [TIFF OMITTED] T9850.002
    
    [GRAPHIC] [TIFF OMITTED] T9850.003
    
    Mr. Shimkus. Thank you.
    I would now like to turn to my colleague and friend Diana 
DeGette from Colorado to introduce our next member of the 
panel.
    Ms. DeGette. Mr. Chairman, I am really happy to welcome 
Matthew Lepore from Colorado. He is the director of the 
Colorado Oil and Gas Conservation Commission, relatively new to 
that post, and he has been very busy since he got there. We 
have had two rule changes, and he is working hard to implement 
all of the rules.
    Colorado has a really innovative way that we are trying to 
grapple with this new oil and gas development, particularly 
hydraulic fracturing. The Oil and Gas Commission has been 
working with a coalition that includes environmentalists as 
well as the industry. While I don't always agree 100 percent 
with all the rules they are promulgating, I think they are 
working hard, and I think he is a great witness to the high 
standard that some States like Colorado, of course, has always 
had.
    So thank you for coming, Mr. Lepore. We are looking forward 
to hearing your testimony.

                 STATEMENT OF MATTHEW J. LEPORE

    Mr. Lepore. Thank you very much, Mr. Chairman.
    Thank you very much, Ms. DeGette, I appreciate that a great 
deal.
    I am pleased to be here to provide our perspective on how 
the State of Colorado regulates oil and gas exploration and 
production to develop our important indigenous resources 
responsibly and in a manner that protects our environmental 
resources.
    I am here today on behalf of both the State of Colorado and 
the Groundwater Protection Council. The Groundwater Protection 
Council was formed in 1983. It has 43 member States, and its 
purpose is to--its members include organizations of 
environmental underground injection control, source water, 
groundwater, and oil and gas regulatory agencies. GWPC promotes 
the use of best practices and fair but effective laws regarding 
comprehensive groundwater protection. Among many other projects 
intended to protect groundwater, GWPC, in conjunction with the 
Interstate Oil and Gas Compact Commission, manages FracFocus, 
the national hydraulic fracturing chemical registry, which I 
will discuss in greater detail below.
    Colorado has a very long history of oil and gas production. 
Our first well was drilled in 1862. It was one of the first 
wells in the country. Today we have 50,265 active oil and gas 
wells. We add about 2,000 a year and will continue to do so for 
the foreseeable future. In 2012, we produced a record-breaking, 
for Colorado, 47 million barrels of oil. At the same time, we 
have a thriving resort and tourist economy. Our rugged 
mountains, clear streams, and abundant wildlife are an 
essential part of our heritage.
    I would like to focus for just a minute or two on some of 
the rules that Colorado has adopted, specifically in the last 
15 months. Starting in December 2011, Colorado adopted the most 
progressive frack fluid chemical disclosure rule in the country 
up to that time. It requires operators to disclose all of the 
chemicals used in their frack fluid. All those chemicals are 
posted on FracFocus and are available for public review. 
Colorado's rule has been imitated by several States, including 
Pennsylvania, Ohio, and Tennessee, and much of BLM's proposed 
regulation looks to Colorado for a model.
    In January of this year, last month, we adopted a 
groundwater monitoring requirement. Beginning on May 1st all 
new wells drilled in Colorado will be required, the operator 
will be required to take a pre-drilling groundwater sample and 
two post-drilling groundwater samples so that we can understand 
what baseline conditions are and have an opportunity to see if 
any drilling has impacted any of those groundwater resources.
    And, finally, Monday of this week, although it seems much 
longer ago, we adopted a rule setting new setback distances, 
the distance between occupied buildings and wells, after about 
a year-long stakeholder process.
    My agency has 76 full-time employees dedicated to 
protecting the environment and seeing that our resources are 
responsibly developed. Many of those have advanced degrees, 
including Ph.D.s, master's degrees, we have geochemists, we 
have hydrologists, we have environmental specialists. There is 
no one on my staff who is interested in seeing oil and gas 
development adversely impact our environment.
    In the limited time I have left, I would like to show you a 
couple of pictures and talk about some of the tools that we use 
to regulate efficiently, effectively, and transparently.
    If you can go to the next slide for me, please. We have--
these are hard to see. This is an interactive map that is 
available on our Web site, that is publicly accessible. This 
map has 125 layers of information. What you are looking at 
there is a picture of Weld County, Colorado, and all of the 
wells in that particular section. You click on any one of those 
links, you will find out everything you want to know about that 
well, when it was drilled, how deep it is drilled, how it was 
completed, how much production there has been, whether there 
has been an inspection, a violation, an enforcement action.
    If I could have the next slide please.
    I am going to keep going, skip a couple, please. One more. 
That is a production report. This is a FracFocus link. You can 
get there directly from our Web site. Again, for any well in 
the State, you can pull this up. If it was stimulated since the 
rules became effective, you can find out what was used in the 
frack stimulation fluid.
    Next slide please. I want to go one more. Thank you.
    This is what we call an e-form through GWPC. GWPC developed 
for us an electronic form submittal and management system so 
that an operator's permit to drill is submitted electronically, 
and this is an inspection report. So we generate electronic 
inspections, we send these to the operators directly. 
Tremendously efficient and effective regulatory system 
developed by GWPC for us.
    My time is up. Thank you very much.
    [The prepared statement of Mr. Lepore follows:]

    [GRAPHIC] [TIFF OMITTED] T9850.004
    
    [GRAPHIC] [TIFF OMITTED] T9850.005
    
    [GRAPHIC] [TIFF OMITTED] T9850.006
    
    [GRAPHIC] [TIFF OMITTED] T9850.007
    
    [GRAPHIC] [TIFF OMITTED] T9850.008
    
    [GRAPHIC] [TIFF OMITTED] T9850.009
    
    [GRAPHIC] [TIFF OMITTED] T9850.010
    
    [GRAPHIC] [TIFF OMITTED] T9850.011
    
    [GRAPHIC] [TIFF OMITTED] T9850.012
    
    [GRAPHIC] [TIFF OMITTED] T9850.013
    
    [GRAPHIC] [TIFF OMITTED] T9850.014
    
    [GRAPHIC] [TIFF OMITTED] T9850.015
    
    [GRAPHIC] [TIFF OMITTED] T9850.016
    
    [GRAPHIC] [TIFF OMITTED] T9850.017
    
    [GRAPHIC] [TIFF OMITTED] T9850.018
    
    [GRAPHIC] [TIFF OMITTED] T9850.019
    
    [GRAPHIC] [TIFF OMITTED] T9850.020
    
    [GRAPHIC] [TIFF OMITTED] T9850.021
    
    Mr. Shimkus. And I thank you. One of the things we did do 
in the last Congress, do an e-manifest issue which I think was 
a bipartisan bill that actually passed Congress, signed into 
law, so we appreciate that.
    Now representing the Association of State Drinking Water 
Administrators, Sarah Pillsbury, who is the administrator, 
Drinking Water and Groundwater Bureau of New Hampshire's 
Department of Environmental Sciences.
    Ma'am, welcome, you are recognized for 5 minutes.

                  STATEMENT OF SARAH PILLSBURY

    Ms. Pillsbury. Great, thank you. And I don't have any 
pictures, but every once in a while I will hold this up, just 
to remind everybody how important public drinking water is.
    I thank you very much for this opportunity to testify. I 
represent the Association of State Drinking Water 
Administrators, I am the current president, and our members 
include the 50 States, the District of Columbia, five 
territories, and the Navajo Nation.
    State drinking water programs are fully committed to their 
public health mission. States recognize that the health and 
well-being of their citizens and communities are dependent on 
receiving safe and reliable drinking water. It is important to 
remember that the State drinking water program personnel live 
and work in the communities served by the programs they 
administer. It is personal to us.
    State personnel are highly qualified to implement the 
public drinking water programs. They fully understand the 
multifaceted nature of the challenges they face and what is 
needed to protect the sources of drinking water, adequately 
treat those sources, and get good water to the tap. Our work is 
especially challenging in light of extremely constrained 
resources for the State drinking water programs.
    State personnel also have the on-the-ground knowledge about 
how to best tailor Federal programs to States' needs and 
conditions. In brief, the key role of the State drinking water 
programs are to inform water systems of what the requirements 
are, make sure they have the capabilities to implement those 
requirements and comply, and then giving ongoing oversight to 
ensure that that compliance continues over time.
    Turning to the EPA-State partnership, we believe it should 
be and currently is one of mutual respect that allows each 
partner to do what they do best. For EPA, this involves 
establishing overarching national requirements along with 
needed tools and information. States believe that the Federal 
requirements need to be based upon State input so that 
implementation is both possible and practical. For States, this 
partnership entails implementing Federal requirements in a 
manner consistent with local conditions and realities.
    Two recent examples of where this partnering has really led 
to great results, the first is the total coliform rule, the 
revised total coliform rule, and the second is the agency's 
decision to allow electronic distribution of our consumer 
confidence report.
    To appreciate the challenge of ensuring compliance with the 
Safe Drinking Water Act, it is important to understand the 
universe of water systems that the act covers, from restaurants 
to manufactured housing parks to America's largest cities.
    While most Americans receive their water from large 
community water systems, most of the 53,000 community water 
systems serve less than 3,300 people. In my State of New 
Hampshire, of the 700 community water systems, 82 percent of 
those serve less than 500 people. And those systems have to 
meet basically the same requirement as my largest city. So 
States must employ strategies for addressing systems of all 
sizes and capabilities.
    In addition, States are challenged by complex regulations, 
many of which are risk-based and system-specific. That is 
really a good thing in terms of the water that gets delivered, 
but it can be challenging to implement.
    Finally, we are challenged by an ever-increasing number of 
emerging contaminants and the need to work with our partners on 
protecting the sources of drinking water.
    Certainly, one of the most multifaceted source-protection 
challenges currently is the rapid expansion of hydrofracturing 
to extract oil and gas. We understand that State oil and gas 
programs have been working diligently to provide needed 
oversight of these activities. We await the results of EPA's 
studies to help shed light on the relationship between 
hydraulic fracturing and the sources of our drinking water and 
whether additional support of the States is necessary.
    One last programmatic responsibility worthy of mention is 
the need for States to continue their work on emergency 
preparedness and response, whether the emergency is rooted in 
terrorism, vandalism, natural disasters, or cyber intrusions is 
the latest.
    As I mentioned earlier, State drinking water programs are 
constrained by lack of resources. State budgets are under 
extreme pressure and are unable, often, to bridge the gap 
between the currently inadequate Federal funding and the amount 
of funds that is actually necessary to implement the Federal 
requirements.
    The Public Water Supply Supervision grant is the primary, 
and in some cases the only, Federal funding source for the 
State. It has been flatlined at roughly $100 million for 
several years, whereas about twice that is needed. And we 
understand that this subcommittee has no jurisdiction over 
appropriations, but we believe that you are key and that your 
support is key to get that funding increased to where it needs 
to be to be adequate.
    So, in summary, States are doing a remarkable job, all 
things considered, and are carefully setting priorities to help 
ensure that public health protection remains preeminent. A 
strong drinking water program supported by the Federal-State 
partnership and adequately funded by Congress will ensure that 
the quality of drinking water in this country remains safe, no 
matter where we live or work or play.
    Thank you.
    Mr. Shimkus. Thank you.
    [The prepared statement of Ms. Pillsbury follows:]

    [GRAPHIC] [TIFF OMITTED] T9850.022
    
    [GRAPHIC] [TIFF OMITTED] T9850.023
    
    [GRAPHIC] [TIFF OMITTED] T9850.024
    
    [GRAPHIC] [TIFF OMITTED] T9850.025
    
    [GRAPHIC] [TIFF OMITTED] T9850.026
    
    [GRAPHIC] [TIFF OMITTED] T9850.027
    
    [GRAPHIC] [TIFF OMITTED] T9850.028
    
    [GRAPHIC] [TIFF OMITTED] T9850.029
    
    [GRAPHIC] [TIFF OMITTED] T9850.030
    
    [GRAPHIC] [TIFF OMITTED] T9850.031
    
    [GRAPHIC] [TIFF OMITTED] T9850.032
    
    Mr. Shimkus. Now I would like to recognize Mr. Jeffrey 
Steers. He is here on behalf of the Association of State and 
Territorial Solid Waste Management Officials. He works as the 
director of the Land Protection and Revitalization Division for 
the Virginia Department of Environmental Quality.
    Sir, welcome. And you are recognized for 5 minutes.

                  STATEMENT OF JEFFERY STEERS

    Mr. Steers. Good morning. And thank you, Chairman Shimkus 
and members of the subcommittee, for allowing me the 
opportunity to testify this morning.
    My name is Jeffrey Steers, and I am president of the 
Association of State and Territorial Waste Management Officials 
and am testifying on behalf of the organization. Our 
association represents the waste management and remediation 
programs of the 50 States, 5 territories, and the District of 
Columbia.
    I would like to preface my remarks by commenting that our 
organization has a positive working relationship with U.S. EPA. 
Our collaborative efforts and problem-solving should not be 
underestimated. However, it is appropriate to have a 
conversation about the role, the significant role, that States 
play in regulating and protecting the environment, which is 
oftentimes understated.
    In implementing EPA's delegated programs, such as in the 
hazardous waste and underground storage tank programs, States 
develop regulatory programs and approve permits, conduct 
inspections, provide compliance assistance, and, yes, take 
appropriate enforcement action when necessary. Implementing 
these programs, however, oftentimes involves duplication of 
effort and resources. In carrying out our responsibilities 
under these Federal programs, State management and cleanup 
programs have identified opportunities to gain efficiencies and 
work together to alleviate such duplicative energy.
    To illustrate this point, I would like to provide three 
examples: risk-based planning, area-wide approaches to 
remediation, and leveraging resources in voluntary cleanup 
programs.
    Let me begin with the value of State-based risk planning 
expertise. States are in a unique position to evaluate the 
specific conditions of how those conditions relate to the 
surrounding area. Having the knowledge and experience to assess 
environmental population and economic factors associated with a 
site make a risk-based approach to planning and prioritization 
possible.
    States are similarly better suited to assess risk and set 
priorities on permitting of inspections for regulated 
facilities. And the results thereby allow States to make better 
use of their resources. The regional knowledge and experience 
that the State environmental programs possess is vital in 
establishing the requirements for the protection of our 
citizens.
    Two States recently completed a 3-year pilot project on the 
benefits of a risk-based inspection planning strategy. Rather 
than using traditional models of a one-size-fits-all approach 
to targeting inspections, we looked at several opportunities to 
target specifically those high-risk facilities where it may 
have had poor performance in the compliance histories or are 
located in environmentally sensitive areas.
    The discoveries that we found through these pilot projects 
included understanding that there were greater violations found 
during inspections at the higher-risk facilities and the 
opportunity for inspectors to work closer with the facilities 
to improve compliance rates over time.
    With respect to area-wide approaches to remediation, State-
specific knowledge and natural economic resources in 
surrounding sites that are contaminated are particularly 
beneficial for States. And they have the expertise to evaluate 
how remediation at multiple sites can be integrated to an area-
wide approach.
    The full advantage can be made of economic redevelopment 
opportunities, and it affords the opportunity to evaluate and 
recognize communities where they are often overburdened. It 
offers a more holistic approach to site cleanup and 
development.
    For example, several States effectively leveraged resources 
and brought parties to the table to address contaminated 
properties and stream sediment using an area-wide approach. In 
Ohio, two rivers within the Lake Erie Watershed, the Ottawa and 
Ashtabula, are shining examples where Federal, State, local 
governments, private parties, and nonprofit organizations 
worked together using an area-wide approach to assess 
contamination, develop implementation, remediation, and 
restoration plans.
    The State of Ohio was a driving force in collaborating, 
using its knowledge of local issues and understanding of 
economic and development interests to facilitate the investment 
of over $50 million at dozens of sites and miles of 
contaminated river. The result in that watershed included 
restored habitat, creation of green spaces, and the 
construction of a world-class auto assembly plant on land that 
many had thought too blighted and contaminated to ever be 
reused.
    Regarding the leveraging of resources, States are able to 
develop voluntary cleanup programs and, doing so, leverage 
Federal funding to achieve results that benefit business, 
create parks, and build community resources. Brownfield 
programs are highly successful, due in large part to the 
flexibility that can be achieved when business and developers 
work together.
    In Virginia, for example, in my home State, we leveraged 
Federal brownfield grant funds and developed an economically 
distressed area of Roanoke, Virginia. The State played a 
critical role in bringing the parties together and creating 
synergies that transformed 23 acres of blighted and 
contaminated land into vibrant medical research facilities with 
over $200 million in public and private investment.
    The time-critical development project not only relied upon 
the State to help bring the parties together, but it also 
necessitated the use of flexible approaches in assessing and 
remediating pollution on the property. Virginia's voluntary 
cleanup program gave developers the certainty they needed with 
respect to future liability and, thus, allowed for the private 
funding of the project.
    In conclusion, ASTSWMO's membership takes seriously its 
responsibility to protect the environment and human health, and 
we do so in the face of ongoing reductions in Federal budgets 
and funding--a paradigm shift from Federal command and control 
policies that limit the States' being able to carry out our 
mission as needed. We will work continually to collaborate with 
U.S. EPA and work with the local level at managing risk.
    Thank you.
    Mr. Shimkus. Thank you, Mr. Steers.
    [The prepared statement of Mr. Steers follows:]

    [GRAPHIC] [TIFF OMITTED] T9850.033
    
    [GRAPHIC] [TIFF OMITTED] T9850.034
    
    [GRAPHIC] [TIFF OMITTED] T9850.035
    
    [GRAPHIC] [TIFF OMITTED] T9850.036
    
    [GRAPHIC] [TIFF OMITTED] T9850.037
    
    [GRAPHIC] [TIFF OMITTED] T9850.038
    
    [GRAPHIC] [TIFF OMITTED] T9850.039
    
    Mr. Shimkus. I would now like to recognize Ms. Teresa 
Marks, who is director of the Arkansas Department of 
Environmental Quality, on behalf of the Environmental Council 
of States.
    Welcome, ma'am.

                   STATEMENT OF TERESA MARKS

    Ms. Marks. Thank you, Mr. Chairman and members of the 
committee. Thank you for inviting me here today to discuss the 
role of State environmental agencies in protecting our Nation's 
environment.
    As the chairman told you, I am representing the 
Environmental Council of States, or we refer to them as ECOS, 
whose members are the leaders of the State and territorial 
environmental protection agencies. I am the current president.
    My comments are primarily directed at the Federal programs 
enacted through legislation by Congress and administered by the 
United States Environmental Protection Agency. These include, 
for example, the Clean Air Act, the Clean Water Act, the Safe 
Drinking Water Act, and the Resource Conservation and Recovery 
Act. There are certainly other applicable statutes, but these 
are the four that are most integral to our environmental 
protection efforts.
    EPA and the States each play a complementary role in 
administering these laws. In general, EPA has oversight and 
rule issuance authority, while the States implement the day-to-
day activities needed to ensure the programs are carried out on 
the local level.
    States obtain the authority to implement the Federal 
programs from EPA through a delegation process. Delegation 
occurs once for each program and is updated as new rules are 
issued or changed.
    Nearly every State has taken delegation of nearly every 
such Federal program. As of 2013, ECOS and EPA agree that 100 
percent of the Clean Air Act programs are delegated; all but 
one State has the Safe Drinking Water program; all but two have 
the RCRA or the hazardous waste program. There are still four 
States that do not have delegation for the Clean Water Act 
discharge permitting program. You can see that the States 
assumed operation of a Federal environmental program in 193 out 
of the possible 200 cases, or 96.5 percent of the time.
    While operating these programs, the State agencies issue 
permits, conduct inspections, monitor pollutants, conduct 
enforcement, and work on many other related matters, such as 
setting standards for watersheds. States conduct about 96 
percent of the inspections at regulated facilities. Pursuant to 
ECOS data, when violations are found, States conduct about 90 
percent of the enforcement cases.
    States are the source of about 94 percent of the data found 
in EPA's six biggest air, water, and waste databases. The 
States also review and issue nearly all of the water, air, and 
waste permits across the Nation.
    The States' implementation of the delegated programs 
provides benefits to government, the regulated community, and 
our citizens. States pay for the majority of the cost of 
operating these delegated programs, thereby saving the Federal 
Government millions of dollars. ECOS has no firm estimates of 
the cost to the Federal Government if it were to operate these 
programs, but we are confident it would be significantly 
greater than the current EPA budget.
    The operation of the environmental programs by the States 
also provide for a more efficient and effective regulation of 
environmental issues, in that the States are more familiar with 
their regulated industries and they are located geographically 
closer to them, thereby providing more timely compliance 
assistance in response to citizen concerns and complaints. In 
addition, States are generally able to provide a quicker 
turnaround on permit issuance, renewal, and modification.
    States contribute to our successes on environmental 
protection in other key ways. We are often the first to see the 
impacts of new pollution sources, and therefore we react 
quickly. We often develop innovative ways to address 
environmental challenges. We can sometimes tailor environmental 
rules to fit local conditions. Some States may also implement 
more stringent rules in cases where such a rule is needed to 
protect a State resource that is not addressed in national 
legislation.
    Both ECOS and EPA understand that a cooperative 
relationship is important to the successful implementation of 
national environmental policies. States are coregulators with 
EPA, and in addition to implementing the Federal laws, they 
also implement their own State laws.
    While States and EPA agree on how to address most matters, 
our different roles mean that sometimes States and EPA see our 
mutual challenges somewhat differently. Sometimes these views 
are driven by concerns that more is being asked of the States 
without the provision of new resources. Sometimes a State may 
think an EPA-issued rule or policy would result in a 
fundamental shift in the State-Federal relationship. We usually 
work through these differences in a professional manner, and we 
are usually successful in resolving them.
    As mentioned previously, State environmental agencies are 
coregulators with the U.S. Environmental Protection Agency. 
Both agencies are key to our joint mission to protect human 
health and the environment. I hope I have given you the 
information you need to understand how vital the State role is 
and how much we, as States, contribute to this joint mission.
    Mr. Shimkus. Thank you very much, ma'am.
    [The prepared statement of Ms. Marks follows:]

    [GRAPHIC] [TIFF OMITTED] T9850.040
    
    [GRAPHIC] [TIFF OMITTED] T9850.041
    
    [GRAPHIC] [TIFF OMITTED] T9850.042
    
    [GRAPHIC] [TIFF OMITTED] T9850.043
    
    [GRAPHIC] [TIFF OMITTED] T9850.044
    
    [GRAPHIC] [TIFF OMITTED] T9850.045
    
    [GRAPHIC] [TIFF OMITTED] T9850.046
    
    Mr. Shimkus. And now I would like to recognize, on behalf 
of the National Caucus of Environmental Legislators, the 
Honorable Pricey Harrison. She is from the North Carolina House 
of Representatives.
    Ma'am, welcome. You are recognized for 5 minutes.

           STATEMENT OF THE HONORABLE PRICEY HARRISON

    Ms. Harrison. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to speak to you today.
    I am Pricey Harrison, serving in my fifth term in the North 
Carolina House. I am also here as a representative of the 
National Caucus of Environmental Legislators. I am on their 
board of directors. It is an organization of 850 
environmentally progressive legislators from around the 
country. It is a bipartisan organization.
    On the topic of today's hearing regarding the States' role 
in protecting the environment under current law, I think most 
of us agree that the States play an important role.
    My own State of North Carolina has had a tradition of 
environmental leadership and passed landmark legislation in 
2002 called the Clean Smokestacks Act that established an 
ambitious timetable for reducing emissions from our coal-fired 
power plants and allowed our utilities to stagger costs of 
pollution-control technologies over a longer period while 
keeping State rates low and providing significant health 
benefits.
    But the States can't do it alone. One only has to think 
back to the Cuyahoga River on fire and cities cloaked in smog 
as evidence of the inability of some States to protect the 
public health and environment of their citizens. It was during 
that time in 1970 that the National Environmental Policy Act 
was passed and the EPA was established with overwhelming 
bipartisan support. Other environmental measures were also 
enacted, such as the Clean Water Act, the Clean Air Act, and 
the Safe Drinking Water Act.
    I think Congress recognized the importance of a Federal 
role in providing a backstop of protection, especially in cases 
where States are incapable, unable, or unwilling to act to 
protect the public health and the environment. And, as 
Congressman Tonko pointed out, we know pollution doesn't 
observe political boundaries and we are all downwind or 
downstream from pollution sources.
    My testimony focuses on two areas where our State needs 
help from the EPA and other Federal agencies, and that is coal 
ash and hydraulic fracturing.
    North Carolina ranks tenth in the country in coal ash 
production. We have more high-hazard ponds than any other 
State, yet we have a complete absence of State regulations for 
safe disposal or containment of the sometimes toxic product. We 
have no liner requirements for our ponds; no closure, siting, 
or structural stability requirements; no reporting 
requirements; no emergency action plans; no plans for dealing 
with legacy ponds despite the fact that several coal-fired 
power plants are converting to cleaner-burning natural gas. Our 
lax regulation of coal ash has resulted in seepage and 
exceedances of a variety of toxins, from arsenic to selenium to 
boron to cadmium, and the list goes on.
    I wish we were more like Maryland. I have tried for years 
since the Kingston spill brought attention to the issue in our 
State to enact legislation for safer regulation of coal ash and 
haven't been able to even get a hearing, and that includes when 
my party was in charge of State government. I think that 
speaks, in part, to the enormous influence of the regulated 
industries at the State legislatures, both through their 
lobbies and campaign support. I think we are more vulnerable to 
those pressures and less equipped to deal with them and the 
complexities in many of these complicated environmental issues.
    Regarding fracking, we are in a similar position. We have 
had very little history of extractive industries in our State, 
and, prior to last summer, fracking was prohibited. But we have 
rushed to permit fracking and established the Mining and Energy 
Commission and charged them with establishing rules over the 
next 18 months. But our agencies are ill-equipped to do the 
work needed to properly regulate and enforce natural-gas 
drilling, and strong Federal oversight is needed.
    It is a problem for us that the industry is exempted from 
so many Federal protections. We have had a significant change 
of leadership in our State in the past 2 years, and they seem 
to be seized with an enthusiasm for deregulation. We have 
undertaken a number of measures to weaken environmental 
protections.
    Legislation--and there was a chart included in your 
handouts, and I am sorry I don't have a slide, but this is what 
rulemaking is like in North Carolina now for environmental and 
public health regulations. That legislation contained language 
which is significant which prevents any State regulations from 
being stronger than any Federal standard. And that means we are 
completely dependent on the Federal Government for setting 
standards to protect our public health and our environment.
    Last week, the Senate passed legislation that wipes out the 
membership of many of our environmental commissions as well as 
our utilities commission and removes conflict-of-interest 
restraints and designated seats for specialized and diverse 
knowledge and experience. We have also had legislation that 
will sunset all rules in our administrative code, and they will 
have to be rejustified to be reenacted.
    Budget issues have been challenging in North Carolina, as 
well. We have slashed our Department of Environment's budget by 
40 percent off of 2005-2006 levels, and our State is not alone 
in this trend.
    So I am here today to plead with you to let the EPA do its 
job. Our State is not unique in its inability or intransigence 
to protect the public health and environment of its citizens 
from issues relating to coal ash and fracking. We need the 
involvement of the Federal agencies. It is vital that the 
Federal Government be allowed to establish at least minimal 
standards of health and safety regulations to ensure effective 
oversight of State agencies.
    Thank you for the opportunity.
    Mr. Shimkus. Thank you, ma'am.
    [The prepared statement of Ms. Harrison follows:]

    [GRAPHIC] [TIFF OMITTED] T9850.047
    
    [GRAPHIC] [TIFF OMITTED] T9850.048
    
    [GRAPHIC] [TIFF OMITTED] T9850.049
    
    [GRAPHIC] [TIFF OMITTED] T9850.050
    
    [GRAPHIC] [TIFF OMITTED] T9850.051
    
    [GRAPHIC] [TIFF OMITTED] T9850.052
    
    [GRAPHIC] [TIFF OMITTED] T9850.053
    
    [GRAPHIC] [TIFF OMITTED] T9850.054
    
    [GRAPHIC] [TIFF OMITTED] T9850.055
    
    [GRAPHIC] [TIFF OMITTED] T9850.056
    
    [GRAPHIC] [TIFF OMITTED] T9850.057
    
    Mr. Shimkus. And now I would like to recognize our last 
member of the panel, not least, from the National League of 
Cities, the Honorable Michael Sesma, who is a council vice 
president, city of Gaithersburg, Maryland, and has some friends 
in Edwardsville, Illinois, which is the county seat of my home 
county. So I may be generous a few seconds with time.
    So welcome.

          STATEMENT OF THE HONORABLE MICHAEL A. SESMA

    Mr. Sesma. I will probably need it. Thank you.
    Good morning, Chairman Shimkus----
    Mr. Shimkus. Extend your mike.
    Mr. Sesma [continuing]. Ranking Member Tonko, and members 
of the subcommittee. I am Michael Sesma, council member of the 
city of Gaithersburg, Maryland.
    Mr. Shimkus. Will you either pull it closer or make sure 
the light is on?
    Mr. Sesma. All right. The light is on. It is probably going 
to count against my time.
    Mr. Shimkus. It is starting to come now.
    Mr. Sesma. All right. Thank you.
    Mr. Shimkus. Just get a little bit closer, and I think we 
will all be happy.
    Mr. Sesma. OK.
    I appreciate the opportunity to share our perspective. I am 
here today on behalf of the National League of Cities, the 
oldest and largest organization representing cities and towns 
across America. I appreciate the opportunity to share our 
perspective on the important role local governments play in 
protecting the environment.
    We have heard a lot about States this morning. States can't 
do it without the cities being part of it. As implementers of 
State and Federal environmental policies and programs and with 
authority over local land use, zoning, and code development 
decisions, cities and towns are key partners in ensuring that 
the health, safety, and welfare of the public is protected.
    Many local governments, including my city of Gaithersburg, 
are at the forefront of sustainability and planning, taking 
action to make our communities vibrant places to live, work, 
and play. America's cities and towns serve as the first line of 
defense and innovation for environmental protection. I would 
like to highlight some of the approaches that Gaithersburg has 
used as an example of the role cities and towns, urban and 
rural, large and small, have in protecting the environment.
    While not currently required by the Federal or State 
government, the city of Gaithersburg has taken steps to 
minimize storm-water runoff and encourage residents to be 
active participants in protecting our watershed and public and 
private property. We have a popular RainScapes program that 
rebates rain barrel use and conservation landscaping to keep 
our neighborhoods green and to prevent rainwater from running 
into the storm drains.
    We have constructed ``green streets'' to achieve the same 
thing. We have been a Tree City USA since 1990, but 
Gaithersburg is becoming more urban. As you know, urban forests 
contribute significantly to energy conservation and overall 
environmental quality.
    So our forest conservation plan allows us to protect our 
urban tree canopy even as we promote development throughout the 
city. We try to replace every lost mature tree with a new tree.
    In 2007, the city adopted a resolution requiring LEED 
Silver certification for all future municipal buildings. We 
were one of the first cities in the country to enact mandatory 
green building requirements for both residential and commercial 
development. Happily, there was no resistance from the 
development community, and our approach has been good for 
business. Green buildings are going up throughout the city.
    And Gaithersburg has the first youth center in the United 
States and the fourth building in Maryland to be certified LEED 
Platinum by the USGBC.
    Cities are committed to working in partnership with the EPA 
to develop strategies and enact policies that enhance our 
environmental resources and create viable communities for 
future generations. These efforts are aided by several positive 
steps that EPA has taken in recent years that strengthen the 
Federal, State, and local partnership. I would like to touch on 
three of these.
    The first is the federalism consultation process. We thank 
EPA for lowering the threshold for triggering the State and 
local consultation process from a threshold of $100 million to 
$25 million. Since lowering the threshold for triggering the 
federalism consultation process, State and local governments 
have been consulted on a more regular basis on issues of mutual 
importance. And we firmly believe that early consultation will 
lead to better results and strengthen the partnership between 
Federal, State, and local government in achieving the 
environmental goals of the EPA.
    In regulatory review and reform, an Executive order calling 
on Federal agencies to identify opportunities for reducing 
administrative and regulatory burdens on local government has 
saved cities money. As cities and towns continue to recover 
from the economic downturn, every dollar counts, and this 
flexibility is a welcome means of lessening the financial 
burden on local governments.
    Finally, EPA's integrated municipal storm-water and 
wastewater planning approach planning approach framework and 
the recent memorandum on assessing financial capability from 
Municipal Green Water Act requirements serve as acknowledgment 
that local governments face difficult financial conditions that 
impact their ability to meet the Clean Water Act obligations. 
By allowing an integrated planning approach, local governments, 
not the agency, can decide how they will meet the CWA 
requirements. This flexibility allows for better compliance, 
better planning, and more efficient spending.
    So cities and towns across the country continue to have 
concerns about the affordability of meeting CWA requirements. 
In Maryland, the implementation of storm-water management 
programs has a direct impact on the quality of water in streams 
and rivers that flow into the Chesapeake Bay. And a healthy, 
clean Chesapeake Bay is vital to the economic health of the 
mid-Atlantic States. While the CWA mandates may be necessary to 
maintain and improve water quality, they come with high costs 
to local governments and taxpayers.
    For example, under our next permit cycle, Gaithersburg must 
retrofit 20 percent of its impervious acreage at a cost that is 
estimated to be about $127,000 per acre. And the projected cost 
for Gaithersburg to do this over 576 acres is $73 million. Our 
operating budget for fiscal year 2013 was $46 million. 
Montgomery County in Maryland has a bigger problem. About 20 
percent of their budget must be used--or a proportion of their 
budget of $4.6 billion will be spent to retrofit their 
impervious services before 2020.
    So in response to local government concerns about 
affordability and the fiscal impact of regulatory compliance, 
EPA issued a memorandum on the fiscal burdens of compliance. 
Local governments will continue to dialogue with EPA on 
affordability. And we commend EPA for both the integrated 
planning effort and local government affordability dialogue 
that will serve to strengthen the intergovernmental 
partnership.
    However, this integrated planning framework can still be 
improved, and we urge EPA to include drinking-water regulations 
in the planning framework.
    So I will just cut to the quick chase and the major reason 
that we are here. And one is to call on Congress some support 
existing and new financing mechanisms for funding water 
infrastructure projects. Cities have been forced to contend 
with significant decreases in intergovernmental revenue, 
including Federal, State, and county aid, adding to the fiscal 
problem.
    Elected officials are making difficult decisions and 
working hard to find innovative solutions to re-energize their 
communities. And without the resources to do that, it will be 
difficult to implement the objectives of the Safe Drinking 
Water and the Clean Drinking Water Act. So there is a need for 
new financing--for financing mechanisms.
    As the administration and Congress seek to identify savings 
and new revenue to reduce the deficit, the Federal income tax 
exemption on interest paid on State and municipal bonds is 
under threat. Tax-exempt municipal bonds are----
    Mr. Shimkus. Mr. Sesma, I have been overly generous----
    Mr. Sesma. Thank you.
    Mr. Shimkus [continuing]. With a minute more than the 
other----
    Mr. Sesma. A minute more. Thank you.
    Mr. Shimkus. No, no, no. I----
    Mr. Sesma. Thank you. I end my remarks.
    Mr. Shimkus. Thank you very much.
    [The prepared statement of Mr. Sesma follows:]

    [GRAPHIC] [TIFF OMITTED] T9850.058
    
    [GRAPHIC] [TIFF OMITTED] T9850.059
    
    [GRAPHIC] [TIFF OMITTED] T9850.060
    
    [GRAPHIC] [TIFF OMITTED] T9850.061
    
    [GRAPHIC] [TIFF OMITTED] T9850.062
    
    [GRAPHIC] [TIFF OMITTED] T9850.063
    
    [GRAPHIC] [TIFF OMITTED] T9850.064
    
    [GRAPHIC] [TIFF OMITTED] T9850.065
    
    [GRAPHIC] [TIFF OMITTED] T9850.066
    
    [GRAPHIC] [TIFF OMITTED] T9850.067
    
    [GRAPHIC] [TIFF OMITTED] T9850.068
    
    [GRAPHIC] [TIFF OMITTED] T9850.069
    
    [GRAPHIC] [TIFF OMITTED] T9850.070
    
    [GRAPHIC] [TIFF OMITTED] T9850.071
    
    [GRAPHIC] [TIFF OMITTED] T9850.072
    
    Mr. Shimkus. Now I would like to recognize myself for 5 
minutes for questions. The first question to goes to Mr. Fitch.
    Please explain the Risk-Based Data Management System. And 
can you give me a specific example of how this tool aids in the 
regulatory effort?
    Mr. Fitch. The Risk-Based Data Management System is a kind 
of a common platform that is used by many of the oil- and gas-
producing States. We enter all of our data into it, all the 
information on individual wells, the drilling, construction, 
production history. And it can be linked to other records 
associated with the well. It helps us to manage our internal 
data, and it also is a good portal for public or industry, any 
interested party, to access that data.
    Mr. Shimkus. Thank you.
    And, Mr. Lepore, how did the Risk-Data Management System 
help you manage the delicate balance between water and energy?
    Mr. Lepore.Mr. Chairman, as Mr. Fitch alluded to, the RBDMS 
allows us to track a vast amount of information, tie that 
information to specific wells, search that information, keep 
that information publicly available. So I guess all of those 
tools combined can be used by someone looking to that energy-
water balance as they want to use that information.
    Mr. Shimkus. And is water data shared across State lines?
    Mr. Lepore. It certainly can be. One of the slides that I 
didn't have time to show you is we have an environmental 
database now that went live in September of 2012. Go to that 
database, click on a well, you can find out everything there is 
to know about that particular groundwater well. Again, fully 
publicly accessible, so it could be shared across State lines.
    Mr. Shimkus. Ms. Pillsbury, do you agree? Do you agree with 
the comments of Mr. Lepore?
    Ms. Pillsbury. That we are able to get information from 
other States about water and water quality? Yes, I agree with 
that.
    Mr. Shimkus. Great. Thank you.
    Mr. Steers, do you believe that with the Federal standards 
set by Congress in statute rather, than set by the EPA, that 
you could establish, implement, and enforce a permit program 
that meets the requisite level of protection established by the 
Federal Government?
    Mr. Steers. Mr. Chairman, yes, I do believe the States are 
capable. We have a significant history over the last 20 to 30 
years of permitting and implementing standards and using the 
flexibilities and understanding local conditions on how we 
apply permitting program across the Nation.
    Mr. Shimkus. And, Ms. Marks, if EPA has authority to take 
over control of a State permit program when the permit program 
isn't meeting a minimum Federal standard, would you consider 
that backstop authority for the EPA?
    Ms. Marks. Yes. I do think that is a backstop authority. 
And it is rarely exercised. Fortunately, it hasn't had to be.
    Mr. Shimkus. And going back to Ms. Pillsbury, your 
testimony talks about other partnerships for training and 
technical assistance. Could you please discuss these and what 
are you trying to obtain from them? And how do you think they 
will help your members with the mission?
    Ms. Pillsbury. Sure. On both the national organization and 
State level, two of the big partners are the National World 
Water Association and the Community Assistance Program. And 
they basically put boots on the ground to help water systems 
obtain financing, meet compliance, those kinds of things.
    In addition to that, up until pretty recently, there were 
both finance centers and technical centers that EPA sponsored. 
And for us in New Hampshire, arsenic was a huge issue, and that 
technical center at University of New Hampshire was critical in 
figuring out what was the least-cost way to these small, 
struggling systems to meet arsenic compliance.
    Mr. Shimkus. And I am going to wrap up. I appreciate the 
testimony. I think it is a very good panel.
    I think it is safe to say that the States, you know, are 
doing most of the work. I am a former infantryman, so I would 
call you the boots on the ground and the infantry of protecting 
our citizens and their air quality and their environment and 
the like. And I want to thank you for your service.
    And I yield to the ranking member, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And I heard a number of concerns about financing, about 
funding streams from the Federal level. Over 40 percent of 
EPA's budget is typically passed through the agency to the 
States to make their work possible. And, according to EPA, 75 
percent of that volume of its State cleanup grants and 80 
percent of its State prevention grants support the salaries of 
State staff, so that that could mean huge cuts and losses at 
your important State agency level.
    Ms. Pillsbury, you represent the State officials trying to 
provide all of our constituents with safe drinking water. You 
held up a great visual. According to EPA, if the sequester goes 
into effect, more than 100 water quality protection and 
restoration projects would be eliminated. What does that mean 
from your perspective in trying to provide safe drinking water?
    Ms. Pillsbury. Well, the Safe Drinking Water Act is really 
structured to be a multibarrier approach to safe drinking 
water. So, you know, you start with a source, the treatment, 
the distribution system, and then monitoring and getting 
information out there. That source piece of it, making sure 
that the water is clean to begin with, is really critical. 
Trying to treat it at the public water systems is very 
difficult, sometimes impossible, oftentimes very expensive.
    So we like the Clean Water Act. And there is actually work 
in progress between Groundwater Protection Council, as do our 
association, the State Drinking Water Administrators, and the 
Association of Clean Water Administrators to look at what tools 
can be brought to bear under the Clean Water Act to protect the 
sources being used by public drinking waters.
    Mr. Tonko. And, Ms. Marks, you represent the State 
officials who work every day to address cleanup of contaminated 
sites. If the sequester, again, goes forward, we are told that 
nearly 300 contaminated, leaking underground storage tanks 
would not be cleaned up. Nearly 600 contaminated properties 
would not get cleaned up under the voluntary cleanup program.
    What does that mean to the work that is assigned you and 
your colleagues?
    Ms. Marks. Well, the Federal dollars that come in to do 
cleanups are absolutely vital, and it would be devastating to 
our programs to lose that assistance. Certainly, the States 
provide a certain amount of that funding, but the Federal 
funding is actually integral to getting those sites cleaned up.
    Mr. Tonko. And, Ms. Harrison, as a State legislator, you 
have to deal with State budgetary issues every year. I served 
for 25 years in State government in New York; I know the 
struggles States are facing.
    Are the States prepared to step in and make up for any loss 
of funding if that should be the result here from Washington?
    Ms. Harrison. The short answer is, no, sir. I think we have 
made significant cuts to our department budgets already, and we 
have actually replaced a lot of the State funding with Federal 
funding and moved positions into federally funded positions. So 
I think any cuts would be devastating to our ability to protect 
the public health of our citizens.
    Mr. Tonko. And, Mayor Sesma, you represent cities across 
the country. Can our cities absorb these costs if Federal 
funding is cut significantly? And what plans would perhaps 
States make to respond to the shortfall?
    Mr. Sesma. Well, the intergovernmental revenue from State 
and Federal governments have caused other stresses on local 
budgets. That either means an increase in local taxes or an 
increase in fees or new fees, or projects don't get done or 
they don't even get planned.
    So one of the big asks of the NLC is to continue to support 
the financing mechanisms that exist, and ask the Federal 
Government, Congress, to consider new or additional creative 
mechanisms that allow us to begin to deal with this 
infrastructure--not just new infrastructure, but maintaining 
the existing infrastructure that is becoming obsolete and 
inefficient.
    Mr. Tonko. Thank you.
    It becomes clear to me that this panel is working hard 
every day to implement our environmental laws and doing a 
commendable job, but sequestration is an imminent threat. If 
these important programs survive sequestration, the budget 
here, the Ryan budget, threatens to cut Federal funding even 
more drastically.
    One of today's witnesses has suggested that the members of 
this subcommittee write to the Appropriations Committee and 
urge them to ensure adequate funding for these programs. I 
think that is a great idea. And I would like to pledge to work 
with our outstanding chair to convey that message to the 
appropriators. I hope that we can work together and make sure 
that we don't sacrifice public health and the environment with 
ill-considered budget cuts.
    So thank you for your advocacy and your advice.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the vice chairman of the 
subcommittee, Mr. Gingrey, for 5 minutes.
    Mr. Gingrey. Mr. Chairman, thank you for the recognition. 
And since we are somewhat rushed for time--I think votes are 
coming up pretty soon--let me get right to my questions. And I 
would like to begin with Ms. Marks.
    Ms. Marks, how much staffing and other resources would the 
EPA need to amass to replicate the technical expertise, the 
enforcement, and administrative efforts provided by the States 
for environmental and public health protection?
    Ms. Marks. Since each State runs their own programs, it 
would be difficult to estimate that. But I can tell you from 
Arkansas, which is a small State, we employ anywhere from 375 
to 400 people. We have expenditures of over $50 million a year.
    And even though we do operate State programs in addition to 
the Federal programs, if EPA came in they would have to pick up 
those State programs, such as landfills. You can't leave 
landfills unregulated. So they would have to pick up beyond 
what they are currently overseeing.
    Mr. Gingrey. So, basically, lots of boots on the ground and 
lots of expertise.
    Ms. Marks. Yes, sir, absolutely. It would be a tremendous, 
massive effort and change in the Federal organization.
    Mr. Gingrey. Thank you. Thank you so much.
    And now I would like to move to a couple of questions for 
Mr. Steers.
    Some have argued that States use variances as a, quote, 
``copout'' for enforcing strict environmental standards in 
their States. Do you agree with that, Mr. Steers?
    Mr. Steers. No, I do not. I think that variances are a 
necessary----
    Mr. Gingrey. And if you don't mind, also just explain what 
they are, how that works, and----
    Mr. Steers. Sure. Variances are a regulatory process that 
States use in order to adapt local conditions and site-specific 
risk that may be present that the regulations may not account 
for, and the ability to allow facilities to operate at a 
different standard based on those local conditions.
    Variances are not a copout, and they are taken seriously by 
the States, inasmuch as they are needed in order to look at the 
differences in the way that regulation is applied across the 
country.
    For example, groundwater protection standards and how we 
regulate groundwater in the eastern part of the United States 
around the landfill where there may be shallow aquifers is not 
necessarily the same as you would have out west or in the 
desert where groundwater may be several hundred feet below the 
surface. And so you need to be able to take into account the 
local geologic conditions when you are applying a one-size-
fits-all national standard.
    Mr. Gingrey. So that basically is what you are talking 
about when you say ``variances.''
    Mr. Steers. Variances, yes.
    Mr. Gingrey. Thank you very much.
    In my remaining time, I would like to conclude with one 
question for Ms. Pillsbury. Your testimony talks about 
tailoring of Federal regulations. This doesn't mean 
compromising water quality for consumers in that State, does 
it?
    Ms. Pillsbury. No, it certainly does not. The ultimate 
compliance with whatever the regulation is is the compliance 
that we achieve.
    There is in implementing pretty much any national 
regulation some discretion on the part of States about how best 
to do that given local circumstances. So that is really what I 
meant by saying ``tailoring,'' to make it so that it is as 
practical to implement as possible.
    Mr. Gingrey. Can you tell me the difference in tailoring 
and variances? Is there a distinct difference there?
    Ms. Pillsbury. Well, ``variance'' I think is an actual term 
that is used in the rules and regulations. And so tailoring is 
more of a concept of making a national standard fit within your 
State and how best to implement it, how best to train people, 
you know, what kind of capabilities they are going to need to 
be able to meet compliance.
    So we don't really do variances in the drinking water 
program that are allowed by statute, but we do a lot of 
tailoring to get the job done.
    Mr. Gingrey. I understand. Thank you.
    Thank all three of you.
    Mr. Chairman, I would yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair recognizes the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Well, I thank the chairman. And I want to 
congratulate you for your elevation and selection. And I look 
forward to working with you on a bipartisan basis to solving 
some of the problems that we are facing in this committee.
    You know, I found the testimony on fracking, Mr. Fitch and 
Mr. Lepore, very informative. So thank you for coming, as well 
as all the witnesses.
    One of the questions that I have that is sort of ongoing 
about fracking is, how important is complete transparency to 
public acceptance of fracking in local communities?
    Mr. Fitch. I think transparency is a crucial element in the 
whole debate there. There is a lot of misunderstanding, 
frankly, on the part of the public about what fracking is and 
what the potential impacts are. There is a lot of suspicion 
about the chemicals that are used.
    I think it is important for the States to get that 
information out there. In Michigan, we are going all over the 
State, my staff and I, giving presentations to kind of try to 
get the facts out there and hear people's concerns.
    Mr. McNerney. Mr. Lepore?
    Mr. Lepore. I would agree with Mr. Fitch's comments. I 
think transparency is critical. Building trust with our 
community members is critical. Imparting information is 
critical is a huge challenge.
    To use one example, I think the term ``fracking'' has been 
used widely as sort of a substitute for all things oil and gas. 
And it is an ongoing challenge to try to parse those 
distinctions.
    Mr. McNerney. I mean, it sounds to me like disclosure is 
something that the Federal Government could impose as a 
requirement on fracking nationwide. I mean, there are 
differences in terms of geologic formations, but disclosure is 
something that should be universal in all fracking 
requirements. Would you agree with that?
    Mr. Lepore. Obviously, Colorado has made the decision that 
disclosure is important. And it was a long and lengthy 
conversation in Colorado. It started in 2008. There were a lot 
of concerns by operators with respect to trade secrets, in 
particular. And I think FracFocus is a tremendous tool that is 
available to all States. I think it is in operators' best 
interest, to be quite frank, to disclose the chemicals they use 
in frack fluids.
    Mr. McNerney. Good. I agree.
    Like Colorado, California, my home State, is water-bound. I 
mean, we always have to worry about our water sources. And one 
of the concerns I have about fracking is the amount of water 
that is used and what happens to that water after it is used. 
Is it reclaimed? Is it discarded into local aquifers?
    How do we deal with the water issue in a State like 
California and Colorado?
    Mr. Lepore. When you talk about how much water it takes to 
frack a well and you talk about several million gallons, it 
certainly seems like a big number. For the State of Colorado, 
the amount of water used totally for fracking is, we have 
calculated, at less than 1 percent. The vast, vast majority of 
our water is used for agriculture.
    That said, again, I would say that reclaiming and recycling 
and reusing that water is becoming an entrepreneur's dream. 
There is a huge need to do that. And we are approached fairly 
regularly now--we, the Colorado Oil and Gas Conservation 
Commission--from businesses interested in instituting onsite 
recycling and reclamation and asking us questions about how 
that would be regulated and so forth.
    So it is an important issue. It is going to continue to be 
an important part of discussion. And we should encourage as 
much reuse as we can.
    Mr. McNerney. So that is an area for innovation, then.
    Mr. Lepore. Yes, sir.
    Mr. McNerney. Recycling and recovering.
    What about the water that is just discarded after fracking? 
I mean, is some of the water that is recovered just discarded 
into the aquifer? Or how is that managed?
    Mr. Fitch. That so-called flow-back water has to be handled 
carefully because it does have some--it may have some remnant 
contaminants it in from the hydraulic fracturing additives, and 
it may also may be picking up salts and compounds from that 
target formation.
    In Michigan, it all has to be contained in steel tanks and 
injected into deep injection wells. And most States have 
similar methods for dealing with it.
    Mr. McNerney. And so that is part of the transparency, is 
how that wastewater is finally disposed of.
    Mr. Fitch. That is correct.
    Mr. McNerney. That would have to be part of the 
transparency.
    Mr. Fitch. Yes.
    Mr. McNerney. Go ahead.
    Mr. Lepore. I think the disposal question, too, is one 
which highlights what we are talking about today, which are the 
differences regionally or locally. In Colorado, like Michigan, 
most of our exploration and production waste, when it is 
exhausted, is injected into deep disposal wells. Other States 
use different disposal methods depending on the geology and 
topography and so forth, including discharge to surface 
streams. So they have to deal with the waste the way that works 
for them.
    Mr. McNerney. Thank you.
    Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back.
    Just for notification of how we are going to operate, we 
are going to try to finish 5 more, 10 more minutes of 
questioning. The two Texans, Mr. Barton will be next, then Mr. 
Green. I think Mr. Green and I have agreed to be the last guys 
out of here to hit the floor to vote. We would like to come 
back after the votes for those who still want to ask questions.
    And, with that, I recognize Mr. Barton for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    I have listened to all the testimony and to the questions 
that have been asked so far and want to go back to the purpose 
of the hearing. ``The Role of the States in Protecting the 
Environment,'' that is the title of this hearing.
    As I read the Constitution, it starts with three words, 
``We, the people,'' which means the power comes from God to the 
people. The people delegate some of that power to the States; 
States delegate some of their power to the Federal Government. 
And then the Tenth Amendment says that all powers that are not 
explicitly enumerated in the Constitution are reserved for the 
States or the people, respectively.
    As is pointed out by the witness from Arkansas, who 
represents all the States, as I understand her role, the States 
are doing most of the work in actual environmental protection 
on a day-to-day basis. They use some Federal law, and, of 
course, there are State laws to do it.
    So the issue before the subcommittee and this panel is 
really, who is going to set the policy? Who is best able to set 
the policy? Is it the Federal Government, top-down, or is it 
the people in the States, bottom-up?
    And I listened, and with the exception of the gentlelady 
from North Carolina, I didn't hear too much complaint about the 
States being able to set the policy.
    Now, I want to ask the gentleman from Colorado, do you 
think the Federal Government is better able to set the policy 
in your State than you and the legislature and the people of 
Colorado?
    Mr. Lepore. No, sir, I don't think so. I think that we have 
had a successful oil and gas commission in the State for 60 
years that understands the distinctions not only of Colorado 
versus other States but in our different oil- and gas-producing 
basins. We have coal-bed methane, we have Niobrara shale, we 
have a variety of different geologies. We have a 60-year 
history of rules that have evolved over time as our 
understanding and as technology have evolved. So I think the 
Oil and Gas Commission is perfectly capable of setting policy.
    I think there is a role for the Federal Government in 
research and other things that are a little bit beyond our 
reach in terms of the ability to finance those kinds of 
projects. But I think the States are doing a fine job.
    Mr. Barton. As I understand the process in Colorado, these 
State regulations that have just been promulgated are the 
result of a process. There was a lot of stakeholder 
interaction, a lot of involvement with the people and the 
legislature and the industries, and it kind of evolved. And, 
finally, either there was a regulation issued by your agency or 
a law passed by the State of Colorado that you are 
implementing. Is that correct?
    Mr. Lepore. That is correct, sir. What we adopted are rules 
of the agency that the commission itself adopted pursuant to 
our statutory authority. The stakeholder process for the 
setback rules, in particular, was a year long. About 11 
separate stakeholder meetings over a period of 7 months, and 
then we moved into more formal rulemaking.
    We had representatives from industry, of course, from 
environmental groups, from groups like homebuilders, 
agricultural interests--very, very diverse. So everybody had an 
opportunity to be heard.
    Mr. Barton. So not everybody is totally happy, but 
everybody had input. And you have a set of regulations now that 
seems to be working and seems to be successful. Is that a fair 
statement?
    Mr. Lepore. I think that is a fair statement. I might add 
that I don't think anybody was totally happy. But, yes.
    Mr. Barton. Now, the gentleman next to you, Mr. Fitch, 
represents the Interstate Oil and Gas Compact Commission, which 
is a voluntary association of State regulators and State 
governments. Is that not correct?
    Mr. Fitch. That is correct, sir.
    Mr. Barton. And you have provided technical information to 
any State who wishes on the various technical aspects of 
hydraulic fracturing. And in doing that, you have been able to 
use some research from various universities, like mine, Texas 
A&M, that could give States a technical basis on which to base 
their regulations. Is that not correct?
    Mr. Fitch. That is correct. That is one of the great 
benefits of IOGCC, that ability to share information and 
coordinate between the States.
    Mr. Barton. Now, is anybody complaining that that process 
is flawed or broken?
    Mr. Fitch. No, sir. It has been very effective.
    Mr. Barton. Mr. Chairman, I am going to yield back. But it 
would appear to me that the current law gives the States great 
flexibility, great opportunity. They can get research money and 
technical assistance from a number of sources, including the 
Federal EPA. But the basic policy decisions on these issues 
appear to me to be best made at the State. And the State seems 
to be using those authorities, if Colorado is any example, in a 
very fair and effective process.
    And, with that, I yield back.
    Mr. Shimkus. The gentleman yields back the time.
    The chair recognizes the gentleman from Texas, Mr. Green, 
for 5 minutes, the former ranking member of this committee. 
Noted.
    Mr. Green. When am I going to get my picture put up, Mr. 
Chairman?
    Thank you, Mr. Chairman. I appreciate the panel and the 
questions.
    We conveniently hear that uniform Federal standards are 
necessary whenever Federal legislators want to override State 
actions. However, isn't it accurate to describe most Federal 
environmental laws as creating a broad, overarching Federal 
framework, while delegating to the States the responsibility of 
creating specific regulations, regulations to reflect the 
realities of circumstances that differ in each State that may 
require different approaches?
    And if you can't tell, I am from Texas also and served 20 
years in the legislature. And, of course, we always have 
complaints about EPA, but we also know that our Texas 
Environmental Quality Commission and EPA work out the 
relationship that they have so that permits are issued, except 
now in carbon. But is that generally the State experience?
    Mr. Fitch. I would say so. A lot of the States, including 
Michigan, had environmental regulations on the books before 
some of the major Federal legislation. So it is not like we 
have been lagging behind. But I think some of the Federal 
legislation did establish kind of a threshold or a standard 
that applies across the States, so it does encourage some 
consistency.
    Mr. Green. But in every case I can think of, it is a 
partnership, though, between EPA and the local State regulator 
in actually issuing permits and enforcing it.
    Mr. Fitch. Yes, it is.
    Mr. Green. OK.
    Mr. Fitch, much has been discussed regarding the States' 
role in regulating oil and gas, natural gas development, 
production, and the process of hydrofracking. In some cases, 
hydrofracking is taking place in States that aren't 
traditionally viewed oil- and gas-producing States.
    And I will give you an example. We have fracked in Texas 
for, I guess, 30 years. Of course, the success now is because, 
you know, first Barnett Shale, Eagle Ford, and even in west 
Texas now reopening the Permian Basin. And, for example, 
Pennsylvania has actually done some things locally that Texas 
actually followed Pennsylvania's lead on, one in the release of 
the--at least a lot of the information that is in the fluid.
    Is there a program available to States to review their 
State regulatory programs and assess what is currently on the 
books between the interstate compact?
    Mr. Fitch. Yes. The IOGCC does perform that function. And 
the Groundwater Protection Council has a peer-review program 
for the Underground Injection Program also that--you know, 
other States come in and compare against standards to assure 
some consistency.
    Mr. Green. Do you know--which is STRONGER? How many State 
reviews have there been done?
    Mr. Fitch. By STRONGER? We have done about six or seven 
just on hydraulic fracturing. I think the States with probably 
about 90 percent--accounting for 90 percent of the production 
have undergone an overall State review.
    Mr. Green. Is there a separate review available to States 
for hydraulic fracking, or fracturing?
    Mr. Fitch. I am sorry?
    Mr. Green. Is there a separate review available for States 
for hydraulic fracking?
    Mr. Fitch. STRONGER, by the way, is the State Review of Oil 
and Natural Gas Environmental Regulations--they do have a 
module for hydraulic fracturing.
    The IOGCC does--I mean, we have kind of an informal system, 
and they also have an inspector certification program that will 
help assure that State inspectors are qualified and capable.
    Mr. Green. I have some information that says STRONGER has 
completed specific hydrofracking reviews for Arkansas, 
Colorado, Louisiana, Oklahoma, North Carolina, Pennsylvania, 
and Ohio. In each of these reviews, have they had a critical 
assessment? And is that available to other States who may also 
be experiencing expansion of hydrofracturing?
    Mr. Fitch. Yes, there is a report made on each of those 
reviews, and it is available on the STRONGER Web site.
    Mr. Green. OK.
    Thank you, Mr. Chairman. I will give you back 49 seconds.
    Mr. Shimkus. And I will take that 40 and make an 
announcement that we will recess and return approximately 10 
minutes after the last vote is called, which should give you 
time to get a little boy's or girl's break, maybe a soda or a 
sandwich. But we will reconvene about 10 minutes after the 
vote.
    [Recess.]
    Mr. Shimkus. Let me call the hearing back to order. And 
there are a couple pieces of business I want to make sure I 
accomplish.
    I ask unanimous consent that all Members be given 5 days 
for opening statements that will be submitted as part of the 
record.
    Without objection, so ordered.
    And, with that, thank you for coming back. Hopefully, you 
got a chance to take a break. I didn't get my soda or candy 
bar, so I am a little grouchy. But they are used to that in 
this committee, so I am in good shape.
    So, with that, I would like to--seeing no other Members 
present, Mr. McKinley is recognized for 5 minutes for his round 
of questions.
    Mr. McKinley. Thank you, Mr. Chairman. I heard earlier it 
was going to be quite a few minutes before, but I will go with 
it. Thank you very much.
    I have questions of Ms. Harrison, if I could, please, if 
you could get your mike on and close.
    Ms. Harrison. Yes, sir.
    Mr. McKinley. OK. I was one of the sponsors of the bill on 
the fly ash legislation, so I am just curious. Let's just start 
with that, if you would. Have you read both of the bills?
    Ms. Harrison. I have read some summaries of them.
    Mr. McKinley. OK. Could you summarize the difference 
between the two bills?
    Ms. Harrison. I am not sure--between the Senate and the 
House bills?
    Mr. McKinley. No, between the House bills that passed. The 
Senate has never taken one.
    Ms. Harrison. Oh, I am sorry. OK. No, sir, then I haven't 
read both of them. And I am not familiar enough to summarize 
the differences.
    Mr. McKinley. OK. Because you made quite a bit in your 
written presentation about your knowledge of it. But you are 
saying you have not even read the bill and you don't know the 
difference between the two.
    Ms. Harrison. I----
    Mr. McKinley. Thank you. That is it.
    Do you acknowledge that the--does the EPA have the 
expertise to deal with fly ash?
    Ms. Harrison. Well, I think my position----
    Mr. McKinley. It is kind of a yes-or-no.
    Ms. Harrison. I think they are in a better position than we 
are----
    Mr. McKinley. OK.
    Ms. Harrison [continuing]. To deal with fly ash.
    Mr. McKinley. And that is fine.
    Ms. Harrison. And that was my point.
    Mr. McKinley. So if they have the expertise and they have 
made some determinations about fly ash over the last few years, 
I am just curious, do you disagree with their reports? You are 
familiar they have done two reports on fly ash; are you not?
    Ms. Harrison. Well, I am familiar that they have done the 
reports. I am not sure I am intimately familiar with the 
details of those reports.
    Mr. McKinley. Interesting. They have done two reports, and 
both times the EPA has said it is not a hazardous material. So 
your statements in your testimony are based on what fact?
    Ms. Harrison. Based on--actually, I----
    Mr. McKinley. Do you have the educational background, 
science background, to differ with them on this? If the EPA has 
said it is OK----
    Ms. Harrison. No, I have submitted with my testimony some 
pretty significant research that has taken place at Duke 
University. And that study that was released and attached to my 
testimony by----
    Mr. McKinley. No, my question was, how did you differ from 
the EPA's own determination? They have done it in 1993 and 
2000. Both times they said, the EPA, that the fly ash is not a 
hazardous material, and it should be continued to be recycled. 
It is a way of taking care of the product.
    So if you are differing from that, I am just curious, on 
what scientific basis are you saying the EPA is wrong?
    Ms. Harrison. As I mentioned--thank you for that question.
    As I mentioned, we have had some scientific studies that 
have been undertaken in North Carolina by Duke University, Dr. 
Vengosh. I included it in my testimony, and it shows 
contamination from seepages from some of these coal ash ponds.
    Mr. McKinley. The material--I think one of the material 
differences is that the opponents of the legislation--and we 
have passed it four times out of the House--is that they did 
not--the people in the House did not want the EPA to have 
primacy, and they wanted to retain that control with the State 
legislatures, State governing groups.
    Now, are you saying that North Carolina doesn't have the 
expertise to handle fly ash?
    Ms. Harrison. Yes, sir. That has been my experience with 
working with our agencies and working with the legislature and 
trying to get a better, safer regulatory regime for coal ash. I 
don't feel like we have good regulations in place.
    Mr. McKinley. Do you know that--do you--the way you have 
acknowledged that you haven't even read the bill and you don't 
know the differences. You know, in the bill, one of the major 
differences was that we listened to people like you and we put 
language into the bill to deal with the disposal of fly ash 
that heretofore is not in current law. And for you in North 
Carolina, it gave you the ability in North Carolina to call for 
liners under new impoundments.
    So we are trying--and the EPA--and, furthermore, that if 
the EPA determines that you in North Carolina are not following 
those standards, they can seize the landfill and take over 
primacy themselves.
    So by virtue of what you are saying, you were having a 
problem that you thought you--with the legislation. It actually 
was intended to help you in North Carolina and any other State 
that has some degree, or lack thereof, of how to dispose of fly 
ash.
    So I am really troubled by your remarks and particularly 
your written testimony. And I appreciate what you are saying. I 
am--fortunately, we have run over time. But thank you. Because 
you have explained a little bit about why you have taken the 
position you have had. Thank you very much.
    Ms. Harrison. I appreciate that. I think a lot of my 
remarks were driven by the findings of the CRS report. And I 
think they found significant shortcomings with the bill. And I 
think I was basing my testimony on that, the CRS report.
    Thank you.
    Mr. McKinley. OK. So, in other words, you are in opposition 
to what the Environmental Council of States, one of the more 
well-recognized groups around the country, that they were 
supporting; the Association of State and Territorial Solid 
Waste--so many people all came together, the stakeholders, to 
make this bill possible. And you are saying they were wrong. I 
find that curious.
    Thank you very much. Sorry. I yield back my time.
    Mr. Shimkus. The gentleman's time has expired.
    Just for comity and appreciation for the committee, not 
everyone has a lot of scientific expert--I definitely don't. I 
understand legislators trying to be involved. And I am a big 
coal ash supporter. We appreciate your being here and your 
testimony.
    I want to do a couple more pieces of business. I ask 
unanimous consent to include statements from seven 
environmental groups, dated February 15, 2013; a statement from 
Patrick Parenteau, P-a-r-e-n-t-e-a-u; and a statement from 
Susan Bodine for the record.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. We still have--Mr. Bilirakis, are you prepared 
to ask questions?
    The chair recognizes the gentleman from Florida for 5 
minutes.
    Mr. Bilirakis. Thanks so much. Appreciate it.
    Chairman Shimkus and Ranking Member Tonko, I am honored, of 
course, to have the opportunity to represent Florida's Ninth--
12th Congressional District--it is 12 now--on the committee, 
and I look forward to working with you. Thank you forgiving me 
the opportunity to serve on this committee.
    Ms. Marks, you have spoken about the delegation process and 
the importance of respect between the Federal and local 
agencies responsible for protecting the public. Unfortunately, 
this relationship does not always live up to our ideals. For 
example, the EPA issued an America nutrient criteria for 
Florida to avoid litigation with environmental groups and, in 
the process, circumvented the State's reasonable and 
scientifically based efforts to address its water quality. That 
rule was based on flawed science, had no consideration for the 
harm it would inflict on Florida jobs, particularly in 
agriculture, and was a threat to other States' rights to self-
regulate.
    Considering the EPA's recent agenda, what are some of the 
examples of specific steps that Congress can take to ensure 
that State and local governments are able to compete with 
Federal agencies on a level playing field when disputes over 
Federal regulations are called into question?
    Thank you.
    Ms. Harrison. Thank you, Congressman.
    I am not sure that I can tell you what type of specific 
statutes might be passed or anything to that effect.
    I can tell you that we certainly are concerned that 
cooperation with the States be encouraged at every point, that 
there be full disclosure with the States. We would like to be 
in on the rulemaking process at an earlier time, and we would 
like to certainly be in on the guidance that is issued with 
these rules. There have been times, I think, where guidance has 
been issued that has not adequately taken into account the 
effects that it will have, particularly the resources it will 
drain from the States.
    So we would like to work with EPA. And I don't know if a 
statute would be necessary in that regard----
    Mr. Bilirakis. Well, any steps, exactly, not necessarily 
statutes.
    Ms. Marks. We would like to work with EPA and have EPA 
encouraged to work with us on getting us involved early in the 
adoption of rules and on the guidelines to implement those 
rules.
    Mr. Bilirakis. Very good.
    Anyone else on the panel wish to comment? 
    Well, thank you very much, Mr. Chairman. Appreciate it. I 
yield back the balance of my time.
    Mr. Shimkus. The Gentleman yields back his time.
    The chair recognizes the gentlelady from Colorado, Ms. 
DeGette, for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    For those of you who don't know, I have been working on a 
bill called the FRAC Act since 2006. And what this bill 
basically does is it says, just like every other industry or 
activity that puts substances into drinking water, the oil and 
gas industry should be subject to the requirements of the Safe 
Drinking Water Act.
    Now, as you all know and we know, what the Safe Drinking 
Water Act does is it establishes baseline requirements for 
underground injection control, but then States may set stricter 
standards. And, also, the EPA works with States to make sure 
that they promulgate regulations that are unique and work for 
those States.
    So, for example, if you have a State like my State of 
Colorado or Pennsylvania or North Carolina or California or New 
York or any of these other States that are doing hydraulic 
fracturing, the geologic issues are different in all of those 
States, the depth of the wells is different in all of those 
States.
    So the Safe Drinking Water Act wouldn't put a cookie-cutter 
process into place. What it would simply do is say, you have to 
meet a minimum requirement for the chemicals that are being 
injected into that ground. And you have to have a readily 
accessible disclosure scheme.
    And, frankly, a couple of years ago, the industry and I 
were this close to being able to come up with an agreed-upon 
reporting scheme that would not be overly onerous but would 
allow consumers to see what chemicals were going into their 
drinking water.
    I am getting ready to reintroduce that bill again next 
month, and I want to ask a couple of questions around that.
    First of all, Mr. Lepore, since you are my guy from 
Colorado, and I am so proud of the work that your agency has 
done, Colorado, you would say we are really in the vanguard of 
the States that have enacted rules around fracking and natural 
gas development, correct?
    Mr. Lepore. Yes, I would.
    Ms. DeGette. And one reason is because, as you said, we 
have been doing natural gas and oil in Colorado for over 100 
years, right?
    Mr. Lepore. Yes.
    Ms. DeGette. Now, Representative Harrison, in your State, 
you said you only just started fracking, and you really don't 
have a regulatory scheme, right? Is that correct?
    Ms. Harrison. Actually, we haven't actually started 
fracking. We lifted the ban on fracking and are anticipating 
permitting in the next year or 2.
    Ms. DeGette. So you have absolutely no regulatory history 
on hydraulic fracturing.
    And this is particularly true with fracking, Mr. Chairman, 
because it is a technique that has been found to use in all 
types of formations, whereas, before, some of the traditional 
techniques were not economically feasible to use all around the 
country.
    So, Mr. Lepore, I wanted to ask you, if we have widely 
ranging techniques and formations and State regulatory 
frameworks, I am going to assume that you and your association 
wouldn't disagree if there was a Federal disclosure rule that 
was sort of a baseline rule so long as the EPA worked with 
States and States could adapt that to their own needs, correct?
    Mr. Lepore. With the caveat that the devil is in the 
details.
    Ms. DeGette. Well, obviously. But, I mean, the general 
concept, you don't disagree with that, right?
    Mr. Lepore. The general concept of disclosure I do not 
disagree with.
    Ms. DeGette. OK.
    And let me ask you another question. In your written 
testimony, you said that the Colorado Commission prides itself 
on oil and gas development tailored to the needs of specific 
basin, environments, and communities.
    Do you think that further flexibility is needed for 
development on split estate lands?
    Mr. Lepore. Split mineral and surface estate lands?
    Ms. DeGette. Yes.
    Mr. Lepore. I think that is why we have the rules that we 
have and why we have just gone through the setback----
    Ms. DeGette. So would you say, yes, local consultation is 
necessary to do that?
    Mr. Lepore. With local governments?
    Ms. DeGette. Yes.
    Mr. Lepore. I think engaging with local governments is very 
important.
    Ms. DeGette. It is critical, right?
    Mr. Lepore. Yes.
    Ms. DeGette. Thanks.
    And one more thing, I wanted to ask you about this 
reporting under FracFocus. How many States are requiring 
disclosure of frack fluid components through FracFocus?
    Mr. Lepore. I am getting two different answers, but----
    Ms. DeGette. Mr. Fitch, do you know the answer to that?
    Mr. Lepore [continuing]. I believe the answer is 10 or 13.
    Ms. DeGette. OK.
    Mr. Lepore. Thirteen.
    Ms. DeGette. And is it required disclosure through 
FracFocus, or is it voluntary disclosure?
    Mr. Lepore. Required by statute or rule, as I----
    Ms. DeGette. In all of those States? Yes. OK. The audience 
member is nodding yes.
    So that is about 10 or 12 States, correct?
    Maybe, Mr. Fitch or Mr. Lepore, you can supplement your 
testimony and give me a list of those States. I am sure my 
staff knows, but I don't know off the top of my head.
    One last thing I wanted to ask is, the EPA study on the 
fracking is coming out next year. And once that happens, then 
we are going to all sit down, and I hope that you will come and 
help us work this out to see what the appropriate regulatory 
framework will be. Because I think the States and the Federal 
Government really need to work together on this issue.
    Thank you for your comity, Mr. Chairman.
    Mr. Shimkus. The gentlelady yields back her time.
    The chair now recognizes the ranking member of the full 
committee, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    We have heard today from some of the witnesses that we can 
rely upon the States--or Members--we can rely on the States to 
protect the public health and environment, and, therefore, a 
reduced Federal role is appropriate. But the States' track 
records are not flawless.
    For example, sea-level rise is an undisputed consequence of 
a warming climate. Many States are dealing with this challenge, 
but the response is not uniform. For example, the scientists on 
North Carolina's Coastal Resource Commission recently concluded 
that North Carolina could see a sea-level rise of more than 3 
feet by the end of the century. This is critically important 
information for coastal development decisions, but the 
information wasn't consistent with the ideology of some in the 
General Assembly.
    Representative Harrison, are you familiar with what 
happened in the General Assembly, and could you tell us about 
it?
    Ms. Harrison. Yes, sir, I am. It was rather a black mark in 
the history of our legislature, I think.
    What happened was, under pressure from developers in the 
communities on the coast, legislation was introduced that would 
have banned the calculation of sea-level rise as a factor in 
climate change and acceleration from thermal expansion and 
melting glaciers. So rather than factoring in a trajectory of 
about a meter sea-level rise over the next century, the 
legislation would have in fact limited us to anticipate an 8-
inch rise in sea-level rise.
    We are particularly vulnerable in North Carolina because of 
our 4,000-plus miles of shoreline and the low-lying areas near 
the shoreline. So this is a real problem for folks who are 
trying to have a better adaptation strategy----
    Mr. Waxman. The bill that was introduced would have 
precluded the commission from planning for anything other than 
8 inches of sea-level rise. Is that right?
    Ms. Harrison. Yes, sir.
    Mr. Waxman. And after enduring public ridicule, the 
legislature succeeded in blocking the Coastal Resources 
Commission from estimating rates of sea-level change until July 
1, 2016. Is that right?
    Ms. Harrison. Yes, sir.
    Mr. Waxman. Well, in your view, was this policy a policy 
that ensures North Carolina makes the best decision possible 
about its coastal development?
    Ms. Harrison. I think it is sort of reflective of the 
current attitude of the legislature, that they are not doing 
what is best for the State or its resources.
    Mr. Waxman. Well, States play a critical role in 
environmental protection, but they don't always get it right. 
And in some cases, as in the North Carolina example, State 
legislatures have proposed or passed bills to tie the hands of 
the State regulators, whose job it is to protect the 
environment and public health.
    Another example is South Dakota. And numerous other States 
have laws on the books, as well, that prohibit the State 
agencies from taking any actions that are more protective than 
rules adopted by the Federal Government. In Ohio, the State 
environmental agency is blocked from setting air quality 
standards that are more stringent than the Federal standards. 
And those are just a few examples.
    State regulators may have the best interests of public 
health and environment at heart, but they can only do what 
their legislatures authorize them to do.
    I assume that--do any of the witnesses disagree that an 
agency can't take action if their State legislatures enact a 
law that blocks them from doing so? Does anybody disagree with 
that? That is just the reality.
    While some here may believe that State regulators will 
always be better than Federal regulators at protecting the 
local environment, we have to remember this important lesson: 
Polluters are fighting hard at the State level, as they do at 
the Federal level, to block or weaken meaningful safeguards. 
And that is why it makes sense to set a Federal floor of 
protection for environmental laws, so that all Americans are 
guaranteed a minimum baseline of protection. I wanted to bring 
out that point.
    And thank you, Mr. Chairman. I will yield back the balance 
of my time.
    Mr. Shimkus. The gentleman yields back his time.
    Seeing no other Members present--Mr. Tonko, do you wish to 
be recognized?
    Mr. Tonko. Yes, Mr. Chair, just briefly. And I appreciated 
the comments you offered on behalf of the subcommittee 
concerning the cross-examination of our witness, Representative 
Harrison.
    But I am compelled to state that, you know, the 
representative was invited here to speak as a legislator on 
behalf of the National Caucus of Environmental Legislators. She 
cited a scientific review or a study done by others.
    And I thought that the cross-examination just didn't 
respect this panel and its sacrifice, in whatever dimension, to 
be here today. Their role is to inform us and to share their 
opinions. And I found that being treated as a scientist, 
which--I don't know her resume, but she was here as a 
legislator. And, you know, to begin with, 2273 had passed the 
House, but 1391 wasn't even released from committee.
    And, again, I just feel it is important for us to stay 
focused on the perspective that was being shared at the table 
by our witnesses, and we show due respect when we conduct 
ourselves that way. So I was very concerned about the cross-
examination by the gentleman from West Virginia.
    With that, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    And I appreciate the comments. And I would just hope that, 
as we move forward, that the same concern expressed on this 
exchange will be the same expressed on the other side whence 
there are other interchanges that will occur, because we are a 
big, powerful committee here in Washington, we have divergent 
views, and we fight like cats and dogs. We can agree to 
disagree respectfully, and I think that is the point being 
made. And we will do our utmost to try to do that.
    We do thank you. Great testimony. We appreciate you coming 
here. Thanks for staying through lunch so that everyone had a 
chance to come and ask their questions.
    You may get a few questions for the record submitted by 
Members who were here or even were not here but are members of 
the committee. If you would get those back to us as promptly as 
possible.
    I think our rules say--do we give a set time?
    We have no idea. So try to do it as soon as possible. We 
would appreciate it.
    With that, I will adjourn the hearing.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T9850.073
    
    [GRAPHIC] [TIFF OMITTED] T9850.074
    
    [GRAPHIC] [TIFF OMITTED] T9850.075
    
    [GRAPHIC] [TIFF OMITTED] T9850.076
    
    [GRAPHIC] [TIFF OMITTED] T9850.077
    
    [GRAPHIC] [TIFF OMITTED] T9850.078
    
    [GRAPHIC] [TIFF OMITTED] T9850.079
    
    [GRAPHIC] [TIFF OMITTED] T9850.080
    
    [GRAPHIC] [TIFF OMITTED] T9850.081
    
    [GRAPHIC] [TIFF OMITTED] T9850.082
    
    [GRAPHIC] [TIFF OMITTED] T9850.083
    
    [GRAPHIC] [TIFF OMITTED] T9850.084
    
    [GRAPHIC] [TIFF OMITTED] T9850.085
    
    [GRAPHIC] [TIFF OMITTED] T9850.086
    
    [GRAPHIC] [TIFF OMITTED] T9850.087
    
    [GRAPHIC] [TIFF OMITTED] T9850.088
    
    [GRAPHIC] [TIFF OMITTED] T9850.089
    
    [GRAPHIC] [TIFF OMITTED] T9850.090
    
    [GRAPHIC] [TIFF OMITTED] T9850.091
    
    [GRAPHIC] [TIFF OMITTED] T9850.092
    
    [GRAPHIC] [TIFF OMITTED] T9850.093
    
    [GRAPHIC] [TIFF OMITTED] T9850.094
    
    [GRAPHIC] [TIFF OMITTED] T9850.095
    
    [GRAPHIC] [TIFF OMITTED] T9850.096
    
    [GRAPHIC] [TIFF OMITTED] T9850.097
    
    [GRAPHIC] [TIFF OMITTED] T9850.098
    
    [GRAPHIC] [TIFF OMITTED] T9850.099
    
    [GRAPHIC] [TIFF OMITTED] T9850.100
    
    [GRAPHIC] [TIFF OMITTED] T9850.101
    
    [GRAPHIC] [TIFF OMITTED] T9850.102
    
    [GRAPHIC] [TIFF OMITTED] T9850.103
    
    [GRAPHIC] [TIFF OMITTED] T9850.104
    
    [GRAPHIC] [TIFF OMITTED] T9850.105
    
    [GRAPHIC] [TIFF OMITTED] T9850.106
    
    [GRAPHIC] [TIFF OMITTED] T9850.107
    
    [GRAPHIC] [TIFF OMITTED] T9850.108
    
    [GRAPHIC] [TIFF OMITTED] T9850.109
    
    [GRAPHIC] [TIFF OMITTED] T9850.110
    
    [GRAPHIC] [TIFF OMITTED] T9850.111
    
    [GRAPHIC] [TIFF OMITTED] T9850.112
    
    [GRAPHIC] [TIFF OMITTED] T9850.113
    
    [GRAPHIC] [TIFF OMITTED] T9850.114
    
    [GRAPHIC] [TIFF OMITTED] T9850.115
    
    [GRAPHIC] [TIFF OMITTED] T9850.116
    
    [GRAPHIC] [TIFF OMITTED] T9850.117
    
    [GRAPHIC] [TIFF OMITTED] T9850.118
    
    [GRAPHIC] [TIFF OMITTED] T9850.119
    
    [GRAPHIC] [TIFF OMITTED] T9850.120
    
    [GRAPHIC] [TIFF OMITTED] T9850.121
    
    [GRAPHIC] [TIFF OMITTED] T9850.122
    
    [GRAPHIC] [TIFF OMITTED] T9850.123
    
    [GRAPHIC] [TIFF OMITTED] T9850.124
    
    [GRAPHIC] [TIFF OMITTED] T9850.125
    
    [GRAPHIC] [TIFF OMITTED] T9850.126
    
    [GRAPHIC] [TIFF OMITTED] T9850.127
    
    [GRAPHIC] [TIFF OMITTED] T9850.128
    
    [GRAPHIC] [TIFF OMITTED] T9850.129
    
    [GRAPHIC] [TIFF OMITTED] T9850.130
    
    [GRAPHIC] [TIFF OMITTED] T9850.131
    
    [GRAPHIC] [TIFF OMITTED] T9850.132
    
    [GRAPHIC] [TIFF OMITTED] T9850.133
    
    [GRAPHIC] [TIFF OMITTED] T9850.134
    
    [GRAPHIC] [TIFF OMITTED] T9850.135
    
    [GRAPHIC] [TIFF OMITTED] T9850.136
    
    [GRAPHIC] [TIFF OMITTED] T9850.137
    
    [GRAPHIC] [TIFF OMITTED] T9850.138
    
    [GRAPHIC] [TIFF OMITTED] T9850.139
    
    [GRAPHIC] [TIFF OMITTED] T9850.140
    
    [GRAPHIC] [TIFF OMITTED] T9850.141
    
    [GRAPHIC] [TIFF OMITTED] T9850.142
    
    [GRAPHIC] [TIFF OMITTED] T9850.143
    
    [GRAPHIC] [TIFF OMITTED] T9850.144
    
    [GRAPHIC] [TIFF OMITTED] T9850.145
    
    [GRAPHIC] [TIFF OMITTED] T9850.146
    
    [GRAPHIC] [TIFF OMITTED] T9850.147
    
    [GRAPHIC] [TIFF OMITTED] T9850.148
    
    [GRAPHIC] [TIFF OMITTED] T9850.149
    
    [GRAPHIC] [TIFF OMITTED] T9850.150
    
    [GRAPHIC] [TIFF OMITTED] T9850.151
    
    [GRAPHIC] [TIFF OMITTED] T9850.152
    
    [GRAPHIC] [TIFF OMITTED] T9850.153
    
    [GRAPHIC] [TIFF OMITTED] T9850.154
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
